<html>
<title> - AN AGREED FRAMEWORK FOR DIALOG WITH NORTH KOREA</title>
<body><pre>[Senate Hearing 108-51]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-51

             AN AGREED FRAMEWORK FOR DIALOG WITH NORTH KOREA

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              MARCH 6, 2003

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



87-821              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     5
Brownback, Hon. Sam, U.S. Senator from Kansas, prepared statement    36
Carter, Hon. Ashton B., co-director, Preventive Defense Project, 
  John F. Kennedy School of Government, Harvard University, 
  Cambridge, MA..................................................     7
    Prepared statement...........................................    11
Einhorn, Mr. Robert J., senior advisor, International Security 
  Program, Center for Strategic and International Studies [CSIS], 
  Washington, DC.................................................    19
    Prepared statement...........................................    22
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................    47
Kanter, Dr. Arnold, principal, The Scowcroft Group, Washington, 
  DC.............................................................    14
Nelson, Hon. E. Benjamin, U.S. Senator from Nebraska, statement 
  submitted for the record.......................................    51

                                 (iii)

  

 
            AN AGREED FRAMEWORK FOR DIALOG WITH NORTH KOREA

                              ----------                              


                        THURSDAY, MARCH 6, 2003

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Richard G. 
Lugar (chairman of the committee), presiding.
    Present: Senators Lugar, Chafee, Brownback, Alexander, 
Biden, Sarbanes, Dodd, Feingold, Boxer, Bill Nelson and 
Rockefeller.
    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order.
    Today the Foreign Relations Committee again turns its 
attention toward North Korea. On February the 4th, the 
committee held a hearing to review issues surrounding weapons 
of mass destruction on the Korean Peninsula. That same week we 
welcomed Secretary of State Powell, who addressed many 
questions related to North Korea. Last week, the committee 
considered the issue of global hunger with specific reference 
to North Korea. Our primary goal at this hearing is to explore 
the possible structure and objectives of diplomatic engagement 
between the United States and North Korea.
    The events of the last several weeks have confirmed and 
reconfirmed how volatile and unpredictable the situation on the 
Korean Peninsula has become. The North Korean regime has taken 
highly provocative actions toward the United States and its 
neighbors. All of us remain concerned about the potential for 
miscalculation that could lead to a deadly incident or broader 
conflict.
    North Korea is a foreign policy problem that requires 
immediate attention by the United States, thoughtful analysis 
about our options, and vigorous diplomacy to secure the 
cooperation and the participation of nations in the region. 
Compared to most nations, our information on North Korean 
decisionmaking is scant. The actions of the North Korean regime 
and the military often stray from a course that we perceive as 
consistent with rational self-preservation. But we must not be 
deterred in our pursuits of valid analysis. We must avoid 
simplistic explanations of North Korean behavior. Today, to a 
degree possible in a public hearing, we will undertake the 
timely challenge of thinking through our diplomatic options.
    In 1994, the United States and North Korea signed the 
``Agreed Framework,'' the agreement under which North Korea was 
to shut down its nuclear facilities in return for shipments of 
heavy oil and the construction of two light water nuclear 
reactors. Since 1994, North Korea has engaged in activities 
that clearly violate the terms of the Agreed Framework.
    Specifically, the pact stipulates that North Korea should 
freeze its graphite-moderated reactors and related facilities. 
This suspension of activity was to be monitored by the 
International Atomic Energy Agency. North Korea also was 
required to store the 8,000 fuel rods removed from its five 
megawatt reactor ``in a safe manner that does not involve 
reprocessing in North Korea.'' Based on intelligence data and 
the acknowledgments of the North Korean regime, we know that 
Pyongyang is taking active steps to implement a nuclear weapons 
program.
    The Clinton administration had hoped to secure a freeze of 
North Korea's nuclear program and to prevent it from producing 
nuclear-weapons-grade plutonium. It also intended that the 
Agreed Framework would be the basis for ongoing contacts with 
Pyongyang, but these goals have not been realized, and 
circumstances require the United States to develop a new 
approach.
    The Bush administration has been reluctant to agree to a 
bilateral dialog with North Korea until the North Korean regime 
satisfies U.S. concerns over its nuclear program. The 
administration has instead focused on proposals for 
multilateral talks involving North Korea and other countries. 
Multilateral diplomacy is a key element to any long-term 
reduction of tensions on the Korean Peninsula. But, in my 
judgment, it is vital that the United States not dismiss 
bilateral diplomatic opportunities that could be useful in 
reversing North Korea's nuclear program and in promoting 
stability. We must be creative and persistent in addressing an 
extraordinarily grave threat to our national security.
    While some American analysts oppose any dialog with North 
Korea, especially in the wake of extraordinarily provocative 
events, I do not believe we have the luxury to be this 
absolute. The risks are too immediate and the stakes are too 
high. The United States must maintain military preparedness and 
should not tolerate North Korea's nuclear weapons programs. But 
the mere initiation of a bilateral dialog, with American 
authorities concurrently consulting with the South Korean 
Government, does not compromise our national security 
interests.
    In that regard, today's hearing is based on the presumption 
that some engagement must eventually occur between the United 
States and North Korea. Our witnesses have been asked to 
provide their perspective on the Agreed Framework on how 
multilateral and bilateral diplomacy between the two countries 
could be structured. They each bring substantial expertise to 
the committee, and I am grateful that they have joined us 
today.
    Let me, at this juncture, recognize the distinguished 
ranking member of our committee, Senator Biden.
    Senator Biden. Thank you very much, Mr. Chairman.
    Gentlemen, thank you for being here. I agree with the 
chairman, we always say we have a distinguished panel, but I 
think you are a distinguished panel. And I cannot think of 
three people that it is better to hear from today than the 
three of you on this issue.
    Let me begin by saying to you that I have no idea, and I 
have some skepticism about whether or not an initiated 
bilateral discussion will produce anything, so I am not one, 
nor do I know are any of you, nor is the chairman, one who 
thinks that merely by talking there is a resolution. But I am 
convinced that there is no option other than talking at this 
point.
    The President is in a very difficult place right now. A lot 
of his critics are suggesting that his preoccupation with Iraq, 
his preoccupation with this, that, or the other thing, is the 
reason why he is not moving. I think it is because--that all 
may be true, but I do not think that is the central point. The 
central point is there are not many options on the table here. 
But what disturbs me is we seem to have no policy.
    The initial policy that has been proffered as a good idea, 
there should be multilateral discussions, and a multilateral 
umbrella, I think, is the way it was phrased by the Secretary, 
under which to have serious discussions with the North Koreans. 
Holding up that umbrella would be Russia, China, Japan, and 
South Korea, along with us. And that is obviously, in my view, 
obviously, the preferred course. The problem is no one else 
wants to get under the umbrella. No one else is willing to 
sponsor or participate in that forum.
    Now, I can understand the administration up to now, up to 
the Secretary of State's visit to the region last week, saying 
that, not giving up on that option. But I do not know how 
anyone can draw any solace from anything that happened on that 
visit of the Secretary of State. And I ask myself in trying to 
figure out what is going on, why are the Chinese, because it is 
clearly in the Chinese interest and the interest of the Chinese 
to have North Korea cease and desist, it is clearly against 
their interest for the Korean Peninsula to become nuclearized, 
which is what many of you have said and others have said and I 
have said, that it is a probable outcome over the next year or 
so or more if North Korea continues on this, hellbent on 
increasing their nuclear capability and stockpile.
    And so I ask myself, why is it that the Chinese will not be 
more aggressive? Whether they could succeed or not is another 
question, but they clearly have the most leverage over North 
Korea. Why is it that the Russians seem almost to be mute on 
this subject? And the South Koreans, I understand, they have 
several hundred thousand people at stake if this goes wrong.
    Now, I get to the point where I wonder: What are the U.S. 
options, if the multilateral option is not an option? And I am 
told that we are still pursuing that option. We are still 
pushing diplomatically. But if it is not an option, it seems to 
me there are only three options and you could catagorize them 
in different ways I am sure, but my rough calculation is there 
is either, on the one hand, one option, war, or relent; in 
other words, the North Koreans blink. They are fearful that 
diplomatically, politically, militarily, economically they will 
be damaged, more damaged if they continue on this course and 
they will cease and desist, or war.
    The second option is on our part, it appears to me, is 
resignation and containment. We resign to the fact that they 
are going to have x number of additional nuclear weapons or 
amounts of plutonium that is potentially available for export, 
but we believe we can contain it. Listening to President Bush 
yesterday, it sounds like for the first time, in a vocal way, 
he has raised one option, war, more vocally, and two, the 
second option, containment, in terms of national missile 
defense. As I read his statement in this morning's paper, he 
talked about, in this long interview, what we have to do is we 
have to get to national missile defense.
    The third option is a negotiated deal, a potential option. 
But you have got to talk to get to that option, if it is an 
option. And as I examine this, it seems that everyone knows--it 
is sort of like the Middle East; everyone knows in the Middle 
East that any final deal is going to have to be no more 
settlements and no right of return. I mean, you know, there are 
certain things that everybody knows is going to have to be part 
of a final deal.
    Well, if there is a negotiated deal, if that is possible--
and, again, I want to say I am not at all sure it is possible. 
But if there is a negotiated deal, it will have to have two 
pieces, everybody knows. One is that the North Koreans will 
have to cease and desist from their nuclear program, as well as 
their rocket program, as well as their missile program. And I 
would hope, and if there were any such deal, and also from 
being the exporters, proliferators to the world. But the other 
side of that deal means that there would have to be some 
commitment relative to North Korean security in that we would 
not--regime change would be off the table, which leads me to my 
concluding point. As I have tried to figure this out as to why 
there is no policy now, it seems to me the policy--and this, I 
am going to ask you to speak to this and you may not want to. 
You may say, ``I just do not know, Joe, so I don't want to 
speak to it at all.''
    But it seems to me, this lack of a policy seems to be a 
reflection of a split within the administration between those 
who see as the ultimate objective in North Korea regime change, 
and those who see--as a primary objective, and those who see as 
the primary objective as getting the cease, desist, bottle up, 
and end their weapons programs here.
    But you cannot have both in all probability. You are not 
going to get a negotiated deal where they agree to regime 
change and no weapons of mass--no nuclear program or missile 
program.
    And so it takes me to the next point, and I just want you 
to, you know, think out loud with me when we get to the 
question period because that is what I am doing with you. I 
have thought a lot about this. Why would not the Chinese act 
more reasonably in their own self-interest here? Well, my 
staff, experts in my staff, tell me, well, they are worried 
about population flows. They are worried about significant 
migration. They are worried--all legitimate. I do not think 
that is the reason. I think the reason is they know they are 
going to be given a choice. They can sign on, I think, if they 
knew for sure we were talking about elimination of weapons. But 
they cannot sign on to regime change. They cannot be the only 
Communist nation left in the world taking on the only other 
Communist dictator in the world in terms of regime change. So I 
think that is the reason why we have had no traction with the 
Chinese that I am aware of, none.
    This new vaulted relationship we are talking about, the new 
vaulted relationship with Putin and the Russians, no traction 
that I can see.
    Now, maybe there is something going on, back channels, that 
I am going to wake up tomorrow morning and be surprised and 
elated about, but I do not see anything. And so, the inability 
to get China to move, the inability to get them to act in what 
everyone would acknowledge, and what they acknowledge 
privately, is in their own self-interest, it seems to me is 
cabined by our inability in this administration to resolve a 
policy. And what is the policy? Is the policy--which it was, 
Secretary Carter, when you were Assistant Secretary, of many of 
those who were in the administration, although it was split 
even then. Of some of those in the administration, it was, 
``You are making a mistake in anything having to do with these 
discussions in this Agreed Framework, because we are appeasing 
and we are prolonging the administration of the North.''
    I mean, that is the ideological--or maybe that is the wrong 
word. That is the policy disagreement. That was at the root of 
why the criticism of the Agreed Framework bubbled up from 1994 
on. And yet you have other people in the administration who 
signed on a report, both those who are viewed as far right and 
those viewed as centrist or whatever, however you want to call 
it, both in the State Department and in the Defense Department 
who are there now, who signed on to a report saying that, ``You 
have got to talk. You have got to work out an agreement.''
    And so my opening statement is more almost a plaintive plea 
for some enlightenment of whether or not my deducing as to how 
we got to where we are and why we do not have a policy is 
correct, because I do not know how to figure this out. I do not 
know how to approach this unless I can get a handle on how I 
think the administration--what is the impediment? It cannot be 
merely that we want to prove that we are tough guys and we are 
not going to be blackmailed. It cannot be that alone, because 
the war option is not a credible option as long as our chief 
ally, South Korea, says, ``We are not in the deal.'' And so I 
would like to talk about those things.
    And I would like to ask unanimous consent that my formal 
opening statement be placed in the record.
    But that is what I hope we can get into a little bit, at 
least in my questioning period with the three of you.
    Thank you.
    The Chairman. Your statement will be published in full, 
Senator Biden.
    [The opening statement of Senator Biden follows:]

           Opening Statement of Senator Joseph R. Biden, Jr.

    Mr. Chairman, North Korea's pursuit of nuclear arms, in clear 
breach of its international treaty obligations has brought Pyongyang to 
the edge of the same precipice it approached in 1994.
    Our challenge is clear: we must stop North Korea from going into 
serial production of fissile material. We must not acquiesce to the 
North's nuclear ambitions.
    If North Korea becomes a fissile material factory or even a 
declared nuclear weapons state, our national security will be gravely 
undermined. Asked what he would tell nervous Americans about North 
Korea, the President said Monday, ``First, I'll say that, let us 
accelerate the development of an. anti-ballistic missile system,'' so 
no nation could threaten the United States.
    But National Missile Defense, even if it worked, wouldn't prevent a 
desperate and isolated North Korean regime from selling plutonium to Al 
Qaeda or some other terrorist organization.
    And if a conventional war erupts on the Korean Peninsula, National 
Missile Defense will not help us if Kim Jong-il, in desperation, uses 
nuclear weapons against U.S. or South Korean forces in a futile effort 
to forestall the end of his regime.
    Mr. Chairman, this is serious business that demands urgent action 
by the administration.
    Remarkably, the same administration that assured us that they would 
not let the world's most dangerous regimes threaten us with the world's 
most dangerous weapons seems utterly resigned to the prospect of North 
Korea building a substantial nuclear arsenal.
    I'm amazed that we would sit back and let North Korea become a 
plutonium factory, churning out the world's most dangerous material and 
possibly selling it to the highest bidder.
    We need to treat this problem for what it is--a crisis--and listen 
to all our allies in the region who say we can still head it off if 
we'd just sit down and talk to the North.
    Why is the administration so reluctant to talk to North Korea? I'm 
not sure, but there are several possible answers.
    It may be a question of face. We have said this is a multilateral 
issue and that it should be resolved multilaterally. To accept direct 
talks would constitute some kind of blow to our prestige. If this is 
true, I would say let's not put form over substance.
    Perhaps the administration is distracted with Iraq and can't muster 
the attention to work both problems at the same time. I don't think 
that's the case. We have to be able walk and chew gum at the same time.
    Perhaps it is because the administration seems to think that 
talking to North Korea is the same as appeasement. I guess it depends 
on what message we deliver in any talks.
    Telling North Korea what it must do if it wants a more normal 
relationship with us is not appeasement. It is common sense, and it is 
the best way to advance our security.
    Perhaps they worry that if they prove willing to talk to North 
Korea, people might ask them why they won't give diplomacy more time 
with Iraq. I think the two cases are so different that this is not a 
valid concern.
    Perhaps the administration has concluded that any agreement they 
might reach with North Korea would not be verifiable? Maybe, but how 
can they know what kind of verification regime is possible until they 
try?
    Or is the real reason behind their reluctance the fact that talks, 
if successful, would have to take regime change off the table as a U.S. 
policy objective, resigning us to live with an evil, if non-nuclear, 
North Korean state? I hope this is not the case, because it would 
constitute a gross mis-prioritization of U.S. interests on the Korean 
Peninsula.
    I don't know why they won't talk with the North. But I do know what 
the result of not talking will be: a North Korea with enough plutonium 
to build 6 nukes in six months, or to sell the world's most dangerous 
material to the highest bidder.
    Our witnesses today know the score. They know that only through 
direct, high level, dialog with North Korea do we have any chance to 
change North Korea's path. And only by trying dialog can we secure the 
support of South Korea, Japan, China, and others, if dialog fails.
    I look forward to the sage counsel of our expert witnesses, each of 
whom has considerable expertise on dealing with the North Korea 
challenge.

    The Chairman. Let me now welcome, officially, our three 
witnesses. First of all, I will introduce you in the order that 
we will ask you to testify: Ash Carter, who is now a co-
director of the Preventive Defense Project at Harvard 
University. As many of you know, I paid tribute to Ash Carter 
many times because he was sort of a founding advisor to former 
Senator Sam Nunn and to me as we tried to work on the 
Cooperative Threat Reduction Act.
    And Arnold Kanter, a principal and founding member of the 
Scowcroft Group; I want to just say, Arnie, when Sam Nunn and I 
were in Korea in 1994, we were reading your papers, even then, 
on Korea to the South Koreans. We did not have contact with the 
North at that occasion.
    And Robert Einhorn, senior advisor of the International 
Security Program at CSIS, has been before this committee many, 
many times, a trusted advisor.
    We really appreciate all three of you very much. All of 
your prepared statements have been made a part of the record, 
so you do not need to ask for permission to do that. And we 
will ask you to present and summarize your presentations in 
ways that you find helpful.
    I would just mention, as a point of business, there will be 
a 10:30 vote in the Senate on the Estrada cloture situation. 
And so at that point, we will recess at 10:30 so that everybody 
may go and vote immediately and come back, and resume the 
hearing as rapidly as possible, at that point.
    At this point I would like to recognize Secretary Carter.

  STATEMENT OF HON. ASHTON B. CARTER, CO-DIRECTOR, PREVENTIVE 
DEFENSE PROJECT, JOHN F. KENNEDY SCHOOL OF GOVERNMENT, HARVARD 
                   UNIVERSITY, CAMBRIDGE, MA

    Dr. Carter. Thank you, Mr. Chairman and other members of 
the committee. I appreciate the opportunity to be back here 
again before you to talk about the loose nukes crisis in North 
Korea. Last time I was here, which was in early February, I 
described why this really is a crisis, what the stakes were for 
the United States in this situation, and some recollections 
about previous crises, in 1994 and 1998. This time you have 
asked me to analyze the prospect for talks with North Korea at 
this point, and I am happy to do so. But I thought first we 
ought to ask ourselves: Why talk to North Korea at all?
    When he appeared with me before this committee on February 
4, Deputy Secretary of State Armitage indicated that the U.S. 
Government intends to conduct direct talks with North Korea. 
And this is the right decision for the Bush administration. But 
it is worth pausing to ask why. After all, North Korea has a 
record of honoring its agreements with us that is, to put it 
charitably, mixed.
    While North Korea kept the plutonium-containing fuel rods 
at Yongbyon under international inspections and its research 
reactor frozen for 8 years, ending this freeze only a few 
months ago, we also now know that it was cheating on other 
provisions of its international agreements by enriching 
uranium. And so this means that, at a minimum, any 
understanding in the future with North Korea will have to be 
very rigorously verified.
    And in addition, the government of North Korea is very far, 
and both the chairman and Senator Biden made this point, once 
again to put it charitably, from sharing our values. Still, one 
is led to talks, to the idea of talks with North Korea, by 
reasoning through the full range of alternatives and from 
seeing the relationship among them.
    One alternative is to let North Korea go nuclear, but to 
isolate, to contain, and to await the collapse of the North 
Korean regime.
    President Bush said in his State of the Union Message that, 
``Nuclear weapons will only bring isolation to North Korea.'' 
But isolation must seem like pretty light punishment to the 
most isolated country on Earth.
    Those who speak of containment envision a hermetic seal 
around North Korea, embargoing imports and interdicting 
shipments of exports, especially ballistic missiles. But the 
export we should worry most about is plutonium. After North 
Korea gets five or six bombs from the fuel rods at Yongbyon, it 
might reckon that it has enough to sell a few and still have 
enough left over for itself, to sell to other rogues or to 
terrorists.
    And it is entirely implausible, and I can say this as a 
technical matter, entirely implausible that we could 
effectively prevent a few baseball-sized lumps of Plutonium-239 
from being smuggled out of Yongbyon and then out of North 
Korea. So containment in that sense, which is the most 
important sense of containment as regards North Korea, is 
technically unrealistic.
    Not only is a nuclear weapons-sized quantity of Plutonium-
239, as I said, small in size, this is material that is not 
highly radioactive, it does not emit an easily detected, strong 
signature that could be used to detect it if it were smuggled 
out of North Korea to a destination where terrorists could 
receive it.
    The problem with awaiting the collapse of North Korea's 
regime is that there is no particular reason to believe it will 
occur soon. And in the meantime, between now and the time when 
it might collapse, North Korea can create lasting damage to our 
security and to international security, damage that will extend 
beyond the Korean Peninsula and well beyond the lifetime of the 
North Korean regime. The half-life of Plutonium-239 is 24,400 
years. I do not how long the North Korean regime is going to 
last, but it is not going to last that long. So in the period 
while we are waiting for it to collapse, it can damage our 
security.
    In my last appearance before the committee, I cited the 
five reasons why letting North Korea go to serial production of 
nuclear weapons is really a disaster for U.S. security. And let 
me just remind you of those five reasons, any one of which 
would be a disaster.
    First, and both the chairman and Senator Biden said this 
already, North Korea might sell the plutonium that it judges to 
be surplus to its own needs to States or terrorist groups. That 
is a pretty riveting prospect, because while hijacked airlines 
and anthrax-containing letters and so forth are a dangerous 
threat to civilized society, it would change the way we are 
forced to live if it were actually a realistic prospect that at 
any moment a great city, American or other, could disappear in 
a mushroom cloud. That is not a prospect we regard as realistic 
today because we believe all the metal from which one can make 
nuclear weapons is in the custody of a government somewhere 
that is responsible in its custodianship. But it would change 
the way we were forced to live if we believed that there were 
truly loose nukes.
    Second, in a collapse scenario, you do not know into whose 
hands the material the North Korean regime makes while it 
persists will fall when the regime does collapse.
    Third, even if the bombs remain firmly in the hands of the 
North Korean regime, their possession of nuclear weapons might 
lead the North Koreans to miscalculate that they had somehow 
tipped the balance of deterrence on the Korean Peninsula, 
deterrence which is now very strong. And that could, in turn, 
make war on the Korean Peninsula more likely. That is a third 
reason.
    Fourth reason, if North Korea goes nuclear, then all of its 
neighbors need to ask themselves whether the choice they have 
made not to have nuclear weapons, is a safe and self-respecting 
choice for them. And that means Japan; it means South Korea, of 
course; it means Taiwan, and possibly others.
    And fifth, the domino effect could go worldwide. If the 
world's strangest, Stalinist throwback, impoverished, isolated 
country goes nuclear, and everybody sits back and just watches, 
what does that mean for the nonproliferation regime worldwide?
    So those are five reasons, any one of which is pretty 
attention-getting.
    It appears from reading the press that the path of letting 
North Korea go nuclear, coupled with isolation, containment, 
and awaiting collapse, is, as a practical matter, the path we 
are on. And this is the worst path, the worst alternative of 
all.
    A second alternative is to use military force to arrest 
North Korea's race to nuclear weapons. I described last time I 
was here the strike plan on Yongbyon that was devised in 1994, 
the last time North Korea was moving toward reprocessing at 
Yongbyon. A strike with conventionally armed precision weapons 
at Yongbyon's fuel rods and reprocessing facility would not 
eliminate North Korea's nuclear program, but it would set it 
back for years. And I do not think there is any doubt that that 
strike is technically feasible.
    If we were to strike Yongbyon, North Korea would have a 
choice. It could respond by lashing out at South Korea through 
an invasion across the DMZ, but that would precipitate a war 
that would surely lead to the end of the North Korean regime. 
There is no guaranteeing that the North would not make such a 
foolish choice, but that is the risk we must run in this 
option. It is a risk worth taking to avoid the disaster 
associated with the first alternative of letting North Korea go 
nuclear.
    As a practical matter, we are in a much better position to 
threaten or conduct such a strike if we have previously made an 
effort to talk North Korea out of its nuclear programs. Even if 
you are a pessimist about the success of talks, they are a 
prerequisite for exercising this second alternative.
    A third alternative is to try to talk North Korea out of 
its nuclear ambitions. And as was mentioned previously, I share 
the assessment that--a year ago I would have assessed that it 
was likely we could reach an agreement on terms acceptable to 
us to stop North Korea from going nuclear in a verifiable way. 
Since then we have let our options narrow. And now I fear that 
North Korea might have concluded that it could dash across the 
nuclear finish line into a zone where it is invulnerable to 
American attempts to force regime change, since it suspects 
that is our objective.
    We must, therefore, view talks as an experiment. If the 
experiment succeeds, we will have stopped North Korea's nuclear 
program without war. If it does not, it was in any event the 
necessary step toward making the alternative of military force 
realistic.
    How should talks be conducted? I will just say a few words 
about that. The two negotiators to either side of me have much 
more experience in those matters than I. It is clear that we 
cannot conduct direct talks with North Korea while it is 
advancing its nuclear programs. So we must, therefore, insist 
that during talks North Korea reinstate the freeze at Yongbyon. 
And in return, we can refrain from taking any steps toward 
military action during the period of talks.
    Secretary Armitage indicated the United States would 
participate in direct talks, meaning that Americans and North 
Koreans would be in the same room. This is necessary. We cannot 
outsource our deepest security matters to China, Russia, or the 
United Nations. And only the United States can convincingly 
tell North Korea that it will be less safe, not more safe, if 
it proceeds with nuclear weapons. This is the crux of the 
matter. That is the reason why we have to be in the room.
    Now, that said, others can be in the room at the same time, 
and there can be more than one room, and having others in the 
room with us might be advantageous. Certainly, we will have a 
richer set of sticks and carrots if our negotiating strategy is 
closely coordinated with our allies, Japan and South Korea. And 
coordination is necessary in any event with those two parties, 
our allies there, in order to maintain the critical alliance 
relationships that have an importance, and goes well beyond 
North Korea. They buttress our entire strategy in the region.
    In the past we have conducted parallel bilateral talks. 
That is U.S./North Korean, South Korean/North Korean, and 
Japanese/North Korean, all in parallel-coordinated fashion, 
rather than meeting in one room. But when we have done this, we 
have been careful to coordinate the three tracks.
    China and Russia have also strongly supported the 
proposition that North Korea must not go nuclear. But their 
influence, and this was mentioned earlier by Senator Biden, is 
not apparent yet, at least to me. They might be willing to play 
a more effective role once we have set out a strategy into 
which they can play a part.
    The United Nations can also play a critical role, 
particularly if North Korea were to agree to IAEA inspectors 
returning. We should continue to proceed at the United Nations, 
but as a complement, not a substitute, for direct talks.
    What should our position be in these direct talks? We 
should enter the talks with a clear sense of our objectives. At 
the top of the list, above all other objectives we might have 
with North Korea, should be the complete and verifiable 
elimination of North Korea's nuclear weapons programs, both 
plutonium-based and uranium-based, and its long-range missile 
programs. This objective includes, but goes beyond, the 
obligations contained in previous agreements made by North 
Korea, well beyond.
    The United States should also make it clear to North Korea 
that it cannot tolerate North Korean progression to 
reprocessing or any other steps to obtain fissile material for 
nuclear weapons, and that we are prepared to take all measures 
of coercion, including military force, to prevent this threat 
to U.S. security.
    In return, there are two things that it should be easy for 
the United States to offer. First, we should be prepared to 
make a pledge to North Korea that the United States will not 
seek to eliminate the North Korean regime by force if North 
Korea agrees to the complete and verifiable elimination of its 
nuclear weapons and long-range missile programs.
    Absent a realistic plan or timetable for regime change--and 
that is a matter I discussed when I was here previously. That 
was a matter that we looked at very carefully in the North 
Korea policy review, led by former Secretary of Defense Bill 
Perry in the 1999/2000 period. Absent a realistic plan or 
timetable for regime change, we must deal with North Korea as 
it is, rather than as we might wish it were. Turning that 
reality, unless somebody can give me a plan I have not seen, 
into a pledge should not be difficult.
    Second, we should be prepared to offer assistance for 
weapons elimination as the U.S. has done in a very different 
context to the States of the former Soviet Union under the 
famous Nunn-Lugar program.
    Over time, if the talks are bearing fruit, we can broaden 
them to encompass other issues of deep concern to the United 
States, such as conventional forces, avoidance of provocations 
and incidents, and human rights; and other issues of interest 
to North Korea, such as energy security and economic 
development. We should also offer a longer-term vision of 
gradual and conditional relaxation of tension, including the 
possibility of enhanced economic contacts with the United 
States, South Korea, and Japan.
    In this approach, the U.S. diplomatic position should be a 
component of a common overall position shared with our allies, 
in which we pool our diplomatic tools: sticks and carrots. In a 
shared strategy, we will also need to pool our objectives, so 
that we are seeking a set of outcomes that South Korea and 
Japan also share.
    If an agreement emerges from direct talks, it will 
supersede and replace the 1994 Agreed Framework, which has been 
controversial in the United States and, it appears, not even 
entirely to the liking of the North Korean leadership. As in 
1994, the agreement must, of course, include the freezing and 
progressive dismantlement of the plutonium program, but we now 
know it has to also include verifiable provisions for 
eliminating the uranium enrichment program, and to the Agreed 
Framework's emphasis on nuclear weapons must be added 
verifiable elimination of North Korea's ballistic missile 
program.
    In return, the United States and its allies must make it 
convincing to North Korea, and this is the crux of the matter, 
that foreswearing nuclear weapons and ballistic missiles is its 
best course, the only safe course for it.
    Mr. Chairman, members of the committee, as I stressed 
earlier, I am by no means certain that a diplomatic approach 
including direct talks will succeed, but it is a necessary 
prelude to any military action, and it is far preferable to 
just standing back and watching the disaster of North Korea 
going nuclear. Thank you.
    The Chairman. Thank you very much, Secretary Carter.
    [The prepared statement of Dr. Carter follows:]

 Prepared Statement of Hon. Ashton B. Carter, Co-Director, Preventive 
    Defense Project, John F. Kennedy School of Government, Harvard 
                               University

             alternatives to letting north korea go nuclear
    Mr. Chairman and members of the Committee, thank you for inviting 
me back to testify before this Committee on the loose nukes crisis in 
North Korea. In my last appearance I described why this was a crisis, 
how enormous the stakes are for our security, and my recollections of 
the last two crises in 1994 and 1998. This time you have asked me to 
analyze the prospect for direct talks with North Korea, and I am happy 
to do so.
Why talk to North Korea at all?
    When he appeared here before this Committee shortly before me on 
February 4th Deputy Secretary of State Armitage indicated that the U.S. 
government intends to conduct direct talks with North Korea. This is 
the right decision for the Bush administration.
    But it is worth pausing to ask why.
    After all, North Korea's record of honoring its agreements with us 
is, to put it charitably, mixed. While the North kept the plutonium-
containing fuel rods at Yongbyon under international inspections and 
its reactor frozen for eight years, ending this freeze only a few 
months ago, we now know it was cheating on other provisions of its 
international agreements by enriching uranium. This means, at a 
minimum, that any future understandings with North Korea will need to 
be rigorously verified.
    In addition, the government of North Korea is very far, once again 
to put it charitably, from sharing our values.
    Still, one is led to direct talks by reasoning through the full 
range of alternatives and from seeing the relationship between them.
    One alternative is to let North Korea proceed to go nuclear, but to 
isolate, contain, and await the collapse of the North Korean regime.
    President Bush said in his State of the Union message that 
``nuclear weapons will only bring isolation, economic stagnation, and 
continued hardship'' to North Korea. Isolation must seem like pretty 
light punishment to the most isolated country on earth.
    Those who speak of containment envision a hermetic seal around 
North Korea, embargoing imports and interdicting shipments of exports, 
especially ballistic missiles. But the export we should worry most 
about is plutonium. After North Korea gets five or six more bombs from 
the fuel rods at Yongbyon, it might reckon it has enough to sell to 
other rogues or, far worse, to terrorists. It is entirely implausible 
that we could effectively prevent a few baseball-sized lumps of 
plutonium from being smuggled out of Yongbyon. Not only is a nuclear 
weapon-sized quantity of Plutonium-239 small in size, but it is not 
highly radioactive and does not emit a strong signature that could be 
detected if it were to be smuggled out of North Korea to a destination 
where terrorists could receive it.
    The problem with awaiting collapse in North Korea's regime is that 
there is no particular reason to believe it will occur soon, and in the 
meantime North Korea can create lasting international damage--damage 
that will extend beyond the Korean Peninsula and beyond the lifetime of 
the North Korean regime.
    In my last appearance before the Committee, I cited the five 
reasons why letting North Korea move to serial production of nuclear 
weapons is a disaster for U.S. and international security:
    First, North Korea might sell plutonium it judges excess to its own 
needs to other states or terrorist groups. North Korea has few cash-
generating exports other than ballistic missiles. Now it could add 
fissile material or assembled bombs to its shopping catalogue. Loose 
nukes are a riveting prospect: While hijacked airlines and anthrax-
dusted letters are a dangerous threat to civilized society, it would 
change the way Americans were forced to live if it became an ever-
present possibility that a city could disappear in a mushroom cloud at 
any moment.
    Second, in a collapse scenario loose nukes could fall into the 
hands of warlords or factions. The half-life of Plutonium-239 is 24,400 
years. What is the half-life of the North Korean regime?
    Third, even if the bombs remain firmly in hands of the North Korean 
government they are a huge problem: having nukes might embolden North 
Korea into thinking it can scare away South Korea's defenders, 
weakening deterrence. Thus a nuclear North Korea weakens deterrence, 
thereby making war on the Korean Peninsula more likely.
    Fourth, a nuclear North Korea could cause a domino effect in East 
Asia, as South Korea, Japan, and Taiwan ask themselves if their non-
nuclear status is safe for them.
    Fifth and finally, if North Korea, one of the world's poorest and 
most isolated countries, is allowed to go nuclear, serious damage will 
be done to the global nonproliferation regime, which is not perfect but 
which has made a contribution to keeping all but a handful of problem 
nations from going nuclear.
    It appears from reading the press that the path of letting North 
Korea go nuclear, coupled with isolation, containment, and awaiting 
collapse, is the path we are on at this moment. This is the worst 
alternative.
    A second alternative is to use military force to arrest North 
Korea's race to nuclear weapons. I described previously the attack plan 
on Yongbyon we devised in 1994, the last time North Korea was moving 
towards reprocessing at Yongbyon. A strike with conventionally-armed 
precision weapons at Yongbyon's fuel rods and reprocessing facility 
would not eliminate North Korea's nuclear program, but it would set it 
back for years. If we were to strike Yongbyon, North Korea would have a 
choice. It could respond by lashing out at South Korea through an 
invasion over the DMZ, but that would precipitate a war that would 
surely mean the end of the North Korean regime. There is no 
guaranteeing that the North would not make such a foolish choice. But 
that is the risk we must run in this option; it is the risk worth 
taking to avoid the disaster associated with the first alternative of 
letting North Korea go nuclear. As a practical matter, we are in a much 
better position to threaten or conduct such a strike if we have 
previously made an effort to talk North Korea out of its nuclear 
programs. Even if you are a pessimist about the success of talks, 
therefore, they are a prerequisite for exercising this alternative.
    The third alternative is to try to talk North Korea out of its 
nuclear ambitions. A year ago I would have assessed that it was likely 
we could reach an agreement on terms acceptable to us to stop North 
Korea's nuclear programs and ballistic missile programs in a verifiable 
way. Since then we have let our options narrow. Now I fear that North 
Korea might have concluded that it could dash over the nuclear finish 
line into a zone where it is invulnerable to American attempts to force 
regime change, since it suspects that is our objective. We must 
therefore view talks as an experiment. If the experiment succeeds, we 
will have stopped North Korea's nuclear program without war; if it does 
not, it was in any event the necessary step towards making the 
alternative of military force realistic.
How should direct talks be conducted?
    It is clear that the United States cannot conduct direct talks with 
North Korea while it is advancing its nuclear programs. We must 
therefore insist that during talks, North Korea reinstate the freeze at 
Yongbyon. In return the United States can refrain from any military 
buildup on the peninsula.
    Secretary Armitage indicated that the U.S. would participate in 
direct talks, meaning that Americans and North Koreans would be in the 
same room. This is necessary. We cannot outsource our deepest security 
matters to China, Russia, or the United Nations. Only the U.S. can 
convincingly tell North Korea that it will be less safe, not more safe, 
if it proceeds with nuclear weapons--and this is the crux of the 
matter.
    Others can be in the room at the same time, and having them with us 
in the room might be advantageous. Certainly we will have a richer set 
of sticks and carrots if our negotiating strategy is closely 
coordinated with our allies, Japan and South Korea--and coordination is 
necessary in any event to maintain the critical alliance relationships 
that buttress our entire strategy in the Asia-Pacific region. In the 
past we have conducted parallel bilateral negotiations--U.S.-DPRK, ROK-
DPRK, and Japan-DPRK all in coordinated fashion--rather than meeting in 
one room with North Korea. But when we have done this, we have been 
careful to coordinate closely with Japan and South Korea.
    China and Russia have also strongly supported the proposition that 
North Korea must not go nuclear. But their influence is not apparent, 
at least to me. They might be more willing to play a constructive role 
once we have set out a strategy into which they can play.
    The United Nations can also play a critical role, particularly if 
North Korea were to agree to IAEA inspectors returning. We should 
continue to proceed at the U.N., but as a complement, not a substitute, 
for direct talks.
What should be the U.S. position in direct talks?
    We should enter direct talks with a clear sense of our objectives. 
At the top of the list, above all other objectives we might have with 
North Korea, should be the complete and verifiable elimination of North 
Korea's nuclear weapons (both plutonium-based and uranium-based) and 
long-range missile programs nationwide. This objective includes, but 
goes beyond, all the obligations contained in previous agreements made 
by North Korea.
    The United States should also make it clear to North Korea that it 
cannot tolerate North Korean progression to reprocessing or any other 
steps to obtain fissile material for nuclear weapons, and that we are 
prepared to take all measures of coercion, including military force, to 
prevent this threat to U.S. security.
    In return, there are two things that it should be easy for the 
United States to offer.
    First, we should be prepared to make a pledge to North Korea that 
the U.S. will not seek to eliminate the North Korean regime by force if 
North Korea agrees to the complete and verifiable elimination of its 
nuclear weapons and long-range missile programs. Absent a realistic 
plan or timetable for regime change, we must deal with North Korea as 
it is, rather than as we might wish it to be. Turning a reality into a 
pledge should not be difficult.
    Second, we should be prepared to offer assistance for weapons 
elimination, as the U.S. has done to the states of the former Soviet 
Union under the Nunn-Lugar program.
    Over time, if the talks are bearing fruit, we can broaden them to 
encompass other issues of deep concern to the United States, such as 
conventional forces, avoidance of provocations and incidents, and human 
rights; and to North Korea, such as energy security and economic 
development. We should also offer a longer-term vision of gradual and 
conditional relaxation of tension, including the possibility of 
enhanced economic contacts with the United States, South Korea, and 
Japan.
    The U.S. diplomatic position should be a component of a common 
overall position shared with our allies, in which we pool our 
diplomatic tools--carrots and sticks. In a shared strategy, we will 
also need to pool our objectives, so that we are seeking a set of 
outcomes that South Korea and Japan also share.
    If an agreement emerges from direct talks, it will supersede and 
replace the 1994 Agreed Framework, which has been controversial in the 
United States and, it appears, not entirely to the liking of the North 
Korean leadership, either. As in 1994, the agreement must of course 
include the freezing and progressive dismantlement of the plutonium 
program at Yongbyon. We now know it must also include verifiable 
provisions for eliminating the uranium enrichment program. To the 
Agreed Framework's emphasis on nuclear weapons must also be added 
verifiable elimination of North Korea's ballistic missile program.
    In return, the U.S. and its allies must make it convincing to North 
Korea that foreswearing nuclear weapons and ballistic missiles is its 
best course--the only safe course.
Conclusion
    Mr. Chairman and members of the Committee, as I stressed earlier, I 
am by no means certain that a diplomatic approach including direct 
talks will succeed. But it is a necessary prelude to any military 
action, and it is far preferable to standing back and watching the 
disaster of North Korea going nuclear.

    The Chairman. Mr. Kanter.

STATEMENT OF DR. ARNOLD KANTER, PRINCIPAL, THE SCOWCROFT GROUP, 
                         WASHINGTON, DC

    Dr. Kanter. Thank you, Mr. Chairman, members of the 
committee. I appreciate this opportunity to join my colleagues 
here on the panel to discuss the North Korea issue and the 
relevance of the 1994 Agreed Framework to where we go from 
here. And as it will be clear from my remarks, I think we have 
all pretty much figured out that this animal we are all 
groping, is an elephant.
    We are facing a crisis. If the term ``crisis'' means 
anything, it means a dangerous problem that requires urgent 
attention. As a result of deliberate North Korean provocations, 
that is the situation we face today on the Korean Peninsula. It 
is, moreover, a situation that is likely to grow steadily more 
dangerous unless and until it is actively addressed.
    I think it also should be noted that this escalating series 
of North Korean actions places two additional obstacles in the 
way of finding an effective political solution.
    First, it tends to split and polarize opinion among 
precisely those allies, and other regional actors, whose 
support will be indispensable to the success of any approach.
    Second, it makes it harder and harder for the United States 
itself to show flexibility, lest that flexibility look like a 
response to escalating North Korea blackmail.
    Against this backdrop, let me turn to the question of what 
a U.S. approach should look like. I think there is a natural 
tendency to take the Agreed Framework as the point of 
departure. I believe, however, that that is the wrong place to 
begin, because it begs or assumes answers to what I believe are 
the right questions, namely, ``What are the North Korean 
problems or threats that we properly should be addressing? That 
is, what is the appropriate scope of a U.S. approach? And then, 
how can we best deal with these problems and threats?''
    What I do not find to be a particularly useful question in 
fashioning a strategy, is to agonize over whether North Korea 
really would be willing to abandon its nuclear ambitions. 
First, there is no way to make confident predictions about the 
behavior, much less the objectives, of an isolated, 
demonstrably unpredictable regime.
    Second, it is reasonable to assume that North Korea, like 
my mother, wants to have it both ways.
    That is, they presumably would want all of the benefits of 
a deal and the benefits they think they would achieve by a 
covert continuation of their nuclear and missile programs, that 
is, by cheating.
    And so our challenge is to design an approach that, at a 
minimum, denies them the possibility of having it both ways 
and, ideally sets in motion indigenous forces that both reduce 
the incentives to cheat and increase the chances of 
whistleblowing if cheating is attempted.
    Third, we cannot know the answers to the question until we 
make an authentically good-faith effort to find out, that is, 
until we really try to negotiate a reasonable deal.
    And, finally, and in some ways to me most important, if we 
do make such a good-faith effort, and if that proves to be 
unsuccessful, we will be in an immensely stronger position 
internationally to deal with a North Korea that has, by its 
failure to agree, shown to be determined to be a dangerous 
nuclear and missile proliferator.
    So to reiterate, I believe we should start with a clean 
sheet of paper in fashioning the U.S. approach, rather than 
just assume that we should pick up where the Agreed Framework 
left off. That said, I do believe that it is useful to briefly 
review the terms of the Agreed Framework, to generate a kind of 
checklist of issues that will need to be considered in 
fashioning any new U.S. strategy.
    As we all know, the Agreed Framework was most of all a 
limited deal. It was the best the U.S. side thought it could 
get to address an immediate crisis. It was confined to the 
North Korean nuclear program. Within the nuclear program, it 
was predominantly about plutonium-related activities, and 
addressed highly enriched uranium [HEU] only by implication. It 
did no more than freeze these plutonium-related activities 
until we would be well along the implementation timetable. And 
as we have now seen, the limits on North Korean actions were 
easily reversible by Pyongyang.
    In exchange for the undertakings by the North Korean side, 
the United States and other members of the international 
community offered some inducements. The North Koreans were 
offered light water reactors, which as the U.S. side fully 
recognized at the time, make no economic sense whatsoever in 
terms of modernizing North Korea's energy sector or meeting its 
pressing development needs. They were simply the price of 
getting North Korea's agreement.
    The North Koreans also got interim supplies of heavy fuel 
oil for their thermal power plants. We made a commitment to 
move toward more normal political and economic relations, and 
we offered security assurances, specifically, assurances 
against the threat or use of nuclear weapons.
    In form, the Agreed Framework was a bilateral agreement. In 
substance, I think it was multilateral in important respects. 
First, the whole process of negotiations involved very close 
and continuous consultations and coordination between the 
United States, Japan, and South Korea, and the Perm Five. 
Second, implementation of the Agreed Framework was accomplished 
through a multilateral consortium, KEDO.
    Armed with this checklist, I conclude that the Agreed 
Framework would be the wrong point of departure both for 
fashioning U.S. policy on North Korea, and for engaging the 
North Koreans. Politically, the Agreed Framework is damaged 
goods. But more important, substantively, its focus is too 
narrow and its ambitions are too limited.
    Let me hasten to add, however, that I think it would be a 
mistake, a serious mistake, to declare the Agreed Framework 
dead before we have anything to take its place.
    Let me address what I think would be the proper scope of a 
new approach, and this very much follows what Ash has said. 
North Korea poses a whole host of issues, problems, and 
threats. I do not believe, however, that we should try to 
address all of them, much less simultaneously, because it is a 
near certainty that if we do try to do so, we will overreach 
and we will fail.
    At the other extreme, while the current preoccupation with 
the North Korean nuclear program is understandable, I believe 
it is too narrow a focus. I believe the U.S. approach should 
address as a first priority the twin issues that are at the 
core of the North Korean WMD threat; that is, it should 
encompass the North Korean ballistic missile problem, as well 
as the nuclear problem.
    Our approach should address North Korean capabilities to 
threaten its neighbors, and the North Korean capacity to 
provide these WMD capabilities to others. And we should do so 
in ways that give us confidence that the actions that North 
Korea takes are not easily reversible. Accordingly, our 
objective ought to be the verifiable dismantlement of North 
Korean nuclear and missile programs.
    Conversely, I believe that other than possible confidence-
building measures, we should defer efforts to reduce the North 
Korean conventional military threat. We, likewise should defer 
efforts to address such problems as North Korea's horrifying 
human rights practices and other issues that are not related to 
immediate security concerns.
    Next, let me turn to the form and process of the U.S. 
approach. I think this is a good place to make explicit that 
which is both obvious but fundamental: North Korea is not just 
a problem for the U.S., but for the international community. It 
is, in a word, a multilateral problem. And any strategy for 
addressing it must take this essential fact as its point of 
departure.
    As we all know, often from bitter experience, virtually any 
unilateral approach that aims at a political solution is 
vulnerable to being undermined by others. To be effective, 
therefore, any moves by us to pressure, leverage, or isolate 
North Korea until it abandons its nuclear and missile ambitions 
must be taken in close coordination with the other key actors. 
And so it follows that the first challenge for U.S. diplomacy 
is to persuade our allies, friends, and others in the region 
that North Korea is not just a U.S. problem that is amenable to 
a purely U.S. solution. On the contrary, we have a common fate 
and we must make common cause.
    And our diplomatic objective should be to persuade each of 
the key regional actors to make clear to Pyongyang, by word and 
by deed, that they are not just messengers for the United 
States, but that North Korean actions are threatening their 
respective core interests.
    Now, time does not allow me to go into detail, but I think, 
at the same time, we need to be candid in recognizing that the 
concerns and the priorities of these other key regional actors 
are unlikely to coincide perfectly with our own, and our 
strategy needs to take account of those differences as well. 
The approach to North Korea also needs to be multilateral 
because, as in the case of the Agreed Framework, it is hard to 
imagine any proposal that would be attractive to North Korea 
that would not depend on the active cooperation and tangible 
support from others for its implementation.
    And, finally, and key, North Korea requires a multilateral 
approach because, as has become increasingly obvious over the 
last several weeks, the crisis is putting our key 
relationships, starting with the relationship we have with 
South Korea, at risk.
    These considerations tell me that a framework for dealing 
with North Korea must be multilateral at least in the sense 
that there is genuine and sustainable consensus on the 
objectives, approach, quid pro quos, and so forth. Absent real 
agreement on these kinds of issues, I do not know what a 
multilateral strategy means or looks like. But given real 
agreement, I think the modalities of how we engage with the 
North Koreans matter a lot less; that is, whether the 
negotiations with Pyongyang take place in a multilateral forum 
or whether the United States takes the lead in ``direct 
talks,'' while others have parallel reinforcing engagements 
with the North Koreans.
    Put another way, I think the debate about form--whether 
talks with the North Koreans should be multilateral or could be 
direct and bilateral--is somewhere between irrelevant and 
distracting, and in no event should it be allowed to be a major 
stumbling block.
    Finally, let me say a word about how we should get started. 
I believe we face an urgent, essentially tactical, yet 
critically important task that is a first step in a broader, 
more strategic approach. What is perhaps most striking about 
North Korea's recent actions, is not just the number of steps 
it has recently taken toward the nuclear brink, but also the 
speed with which it has taken them. We need to stop this 
momentum. We need to get the North Koreans to immediately 
freeze both their nuclear and ballistic missile programs in 
place before the problem becomes even more dangerous and 
difficult, and before we are left with only profoundly 
unattractive options.
    This means, on the one hand, we need to be clear with North 
Korea about our red lines, starting with the reprocessing of 
plutonium in the spent fuel rods. On the other hand, I believe 
that in exchange for an immediate freeze, we should offer to 
meet with the North Koreans. For our part, it need be nothing 
more than a preview of coming attractions; for example, telling 
the North Koreans in general terms, both what the international 
community requires of them and why it would be in their 
interest to respond positively. I believe such an offer could 
offer several benefits.
    First, it might be a face-saving way for the North Koreans 
to stop their self-destructive march toward the brink. Second, 
countries that thus far have been unwilling or unable to press 
North Korea to meet our demands might see such an offer by us 
as a reason to engage Pyongyang in exactly the kind of 
concerted way that an effective multilateral approach demands. 
And, third, it could help end the sterile debate over ``form'' 
that is increasing strains among those who need to work 
together on North Korea.
    But, again, freezing the North Korean nuclear and missile 
programs is just a tactical first step to create conditions 
that would be more conducive to a lasting arrangement. I have 
already indicated what I believe our core goal should be. And 
in pursuing these objectives, the approach to the North Koreans 
should convey pretty much the sense that everything is on the 
table.
    Specifically, we should be willing to provide security 
assurances to North Korea that affirm that we have no hostile 
intent toward them; that is, the problem is the North Korean 
programs and actions that pose a threat to regional and 
international stability. We, therefore, should be prepared to 
assure North Korea that if and as that threat disappears, it 
need have no concern about its own security.
    We also should be prepared to take steps to end North 
Korea's political and economic isolation. Not only are such 
measures likely to be the price of a deal, I think it is also 
important to recognize that they additionally would be in our 
self-interest.
    First, we have a clear interest in a stable Korean 
Peninsula and, therefore, in avoiding an abrupt North Korean 
implosion.
    Second, much of North Korea's isolation is self-imposed. 
That isolation is the source of the regime's control over the 
North Korean people. And it is very likely a root cause of 
North Korea's paranoia. And so it follows that steps that erode 
that isolation would serve both the immediate objectives and 
our longer-term objectives.
    Obviously, everything would depend upon the specific terms 
of a deal, but just as obviously, the goal of any deal must be 
much more than simply to return to the Agreed Framework and to 
restore the status quo ante. This is not, and cannot be, about 
paying twice for the same horse. The idea is to buy a whole new 
horse.
    In conclusion, it must be said that there is nothing in the 
history of North Korean agreements that give any grounds for 
optimism that they would honor a new, more lasting deal. That 
is why our objective should be the verifiable dismantlement of 
North Korean nuclear and ballistic missile capabilities, and 
that is why anything we offer to Pyongyang in return must be at 
least as reversible as any undertakings they make.
    There, likewise, as Senator Biden suggested, is just too 
much history to be confident that there is even a new deal to 
be made, and just as--much less be confident that there is a 
deal to be made that Pyongyang will keep. But it is unarguably 
in the U.S. interest to make every effort to lead an 
international campaign to achieve a political solution. Not 
only do the stakes require it, but it also would pay big 
dividends if, in the end, there is no political solution and 
other alternatives must be considered.
    Thank you.
    The Chairman. Thank you, Dr. Kanter.
    Mr. Einhorn.

 STATEMENT OF ROBERT J. EINHORN, SENIOR ADVISOR, INTERNATIONAL 
   SECURITY PROGRAM, CENTER FOR STRATEGIC AND INTERNATIONAL 
                    STUDIES, WASHINGTON, DC

    Mr. Einhorn. Thank you Mr. Chairman, other members of the 
committee for giving me the opportunity to testify this 
morning.
    The Chairman. I wonder if you might pull that microphone 
closer, or turn it on.
    Mr. Einhorn. OK. I think just turning it on will help.
    Thank you, Mr. Chairman.
    Recent North Korean behavior has tended to give a boost to 
the theory that the DPRK, rather than being willing to trade 
away its nuclear option, is determined to acquire and retain 
nuclear weapons. But the implications of North Korea becoming a 
nuclear power are so disturbing that before we resign ourselves 
to that outcome, we should put Pyongyang's declared willingness 
to give up nuclear weapons to the test, and the best way to 
test it is at the negotiating table. We need to engage very 
soon, because in a matter of weeks North Korea could reprocess 
enough plutonium for about five nuclear weapons.
    I would like to offer the committee some suggestions on 
getting that engagement underway and carrying it forward. The 
question of who would participate in negotiations with the DPRK 
has recently become a stumbling block. The U.S. has favored a 
multilateral approach, while North Korea has adamantly rejected 
a multilateral framework, and instead has insisted on engaging 
the United States bilaterally.
    The Bush administration is right that the challenge posed 
by North Korea is not simply a bilateral matter between the 
United States and the DPRK. North Korea's neighbors and the 
rest of the international community have a huge stake in the 
outcome, and they should participate both in the development 
and in the implementation of any solution. At the same time, it 
is clear that mutual threat perceptions between Washington and 
Pyongyang are a central feature of the current situation, and 
that any solution will have to take the particular needs of 
these two protagonists into account.
    I agree with Ash Carter; we cannot outsource such questions 
as achieving an effectively verifiable means of ensuring 
compliance.
    In these circumstances, it is reasonable to begin the 
negotiating process with bilateral U.S./North Korean talks, 
primarily on the nuclear issue. In parallel, a multilateral 
group could be convened, consisting perhaps, of the P-5, South 
Korea, Japan, European Union, and Australia. It could initially 
serve as a mechanism in which the United States could consult 
the others on its plans for dealing with the North Koreans on 
the nuclear issue.
    Eventually, perhaps after a general framework had been 
developed on the nuclear issue, the multilateral forum, now 
with the North Koreans participating, could become the umbrella 
under which a variety of bilateral and multiparty engagements 
with North Korea could take place.
    A number of promising variants of this idea could be 
devised. What is critical is to get the talks started right 
away, and to get other governments to recognize their 
responsibility for helping achieve a solution. Once a workable 
formula on participation can be found, it will be important to 
create an environment in which neither the United States nor 
the DPRK has to negotiate under duress.
    Therefore, North Korea should pledge that while the talks 
are underway it will not reprocess its spent fuel, and it will 
permit the International Atomic Energy Agency to return to 
Yongbyon for the purpose of reapplying monitoring seals at its 
reprocessing facility.
    For its part, the United States should pledge that as long 
as those seals are intact, it will not engage in military 
action against Yongbyon and will not support United Nations 
sanctions against North Korea. There should be no other 
preconditions for getting the talks started.
    For the talks to have any chance at succeeding, North Korea 
must be given a clear choice between a much brighter future 
without nuclear weapons and a much bleaker one with them. This 
requires both carrots and sticks.
    The U.S. administration is right that the North Koreans 
should not be rewarded for simply coming into compliance with 
their existing obligations. But that principle does not mean 
the DPRK should not be offered additional incentives for 
accepting additional obligations. In other words, more for 
more. I think this is what Arnie Kanter was talking about when 
he spoke about the ``whole new horse.''
    In exchange for verifiable commitments by North Korea that 
would terminate its nuclear weapons program and address a range 
of other concerns, the United States and other countries should 
be prepared to address the DPRK's needs in the energy, food, 
infrastructure, and other economic areas, as well as its 
concerns about sovereignty and security.
    The vision of a better future must be credible to North 
Korea if we want to influence their behavior, but the high cost 
of continuing on their current reckless course should also be 
clear. So far, this message has not been conveyed clearly 
enough.
    Chinese leaders should use private channels to tell their 
obstreperous old friends that China will not use its veto to 
block U.N. sanctions if North Korea disregards their advice and 
opts for nuclear weapons.
    The message from Seoul is probably even more important. But 
so far, South Korea's new President, Roh Moo-hyun, has spoken 
as if a peaceful diplomatic solution could be achieved with 
only carrots and no sticks. His administration should be frank 
with Pyongyang that a DPRK decision to become a nuclear power 
would put a brake on inter-Korean relations.
    With regard to the agenda for negotiations, the nuclear 
issue deserves the highest priority. Beyond that, there is a 
wide-range of subjects that various countries wish to take up 
with Pyongyang.
    The Bush administration previously spoke about a 
comprehensive agenda that, in addition to the nuclear issue, 
also covered missile exports, North Korea's indigenous missile 
program, conventional arms, and human rights.
    Administration officials said that they would insist on 
making progress across the board, and would not conclude 
separate agreements on some issues if deliberation on other 
issues was not getting anywhere.
    All the items on the administration's agenda, in my view, 
are important and should be pursued with North Korea. But 
insisting on progress on all issues as a condition for reaching 
agreement on any of them, could lead to a prolonged stalemate. 
And it could preclude near-term agreements on items of urgency, 
such as stopping North Korea's long-range missile exports. So 
while progress should be sought on a wide-range of issues, the 
items should not be tightly linked.
    Finally, close coordination with South Korea will be 
critical both to improving prospects for a negotiated solution 
to the nuclear issue, and to preserving the strength of an 
alliance relationship that is vital to stability in Northeast 
Asia, but that has become quite strained in the last few years.
    In the weeks ahead, the Bush and Roh administrations should 
make every effort to forge a common approach on the nuclear 
issue. In the absence of such a common approach, Pyongyang will 
have every incentive to prolong the crisis in the hope of 
exacerbating U.S.-ROK differences and stimulating anti-
Americanism in South Korea.
    Mr. Chairman, we have all read news reports in recent days 
that the Bush administration is now accepting as inevitable 
that North Korea will reprocess the spent fuel and become a 
nuclear power. According to those reports, the administration 
has essentially given up on preventing such a development and 
is now falling back to a policy of trying to stop a nuclear 
armed North Korea from selling fissile material to hostile 
States and terrorist groups.
    I hope these reports are inaccurate. North Korea may well 
have decided that its survival depends on having nuclear 
weapons and that it must proceed rapidly to amass a small 
nuclear arsenal. But at this stage, we certainly do not know 
that, and given the huge stakes involved it would be a 
monumental error if, out of an aversion to dealing with the 
regimes we do not like, we fail even to explore whether an 
agreement could be reached that could credibly terminate North 
Korea's nuclear program.
    If North Korea has indeed decided that it must have nuclear 
weapons, then any negotiations will fail. In that event, we 
will have no choice but to turn to the policy of pressure, 
isolation, and containment. And having tried the path of 
negotiations, we will be in a stronger position to mobilize 
international support for such an approach. But before setting 
ourselves on such a troublesome course, we should find out at 
the negotiating table whether a better outcome is possible.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you very much, Mr. Einhorn.
    [The prepared statement of Mr. Einhorn follows:]

  Prepared Statement of Robert J. Einhorn, Senior Advisor, Center for 
                  Strategic and International Studies

                     NEGOTIATIONS WITH NORTH KOREA

    Mr. Chairman, thank you for the opportunity to testify before the 
Committee this morning on the question of negotiating with North Korea.
    As the current nuclear impasse grows more serious, we still do not 
know for sure whether North Korea is irrevocably committed to having 
nuclear weapons or is instead prepared to give up the nuclear option in 
exchange for security assurances and other benefits. The succession of 
steps North Korea has taken in recent months to end the plutonium 
freeze at Yongbyon--together with its clandestine uranium enrichment 
program begun in the late 1990s--have cast increasing doubt on the 
relatively benign explanation that Pyongyang is willing to trade away 
its nuclear program. In a matter of weeks, it could take the fateful 
step of starting the reprocessing of spent fuel rods that could produce 
enough plutonium for about five additional nuclear weapons.
    If the North Koreans are indeed determined to acquire and retain 
nuclear weapons, there is little we can do short of war to stop them. 
But the implications of the DPRK becoming a nuclear power are so 
disturbing that, before we accept that outcome as a fait accompli, we 
should put Pyongyang's declared willingness to give up nuclear weapons 
to the test at the negotiating table. And while the U.S. Administration 
is understandably reluctant to convey the impression that it is eager 
for talks and susceptible to North Korea's notorious brinksmanship 
tactics, the fact of the matter is that time is fast running out to 
head off actions that would be very difficult to reverse.
    So the U.S. should engage with North Korea, and should do so soon. 
My testimony provides some suggestions on getting that engagement 
underway and on carrying it forward.

Participation in the negotiations
    The question of who would participate in negotiations with the DPRK 
has recently been a serious stumbling block. The U.S. has favored a 
multilateral framework and has reportedly considered a number of 
variants, including a forum that included the five Permanent Members of 
the United Nations Security Council, North and South Korea, Japan, the 
European Union and Australia. The North Koreans, however, have 
adamantly opposed a multilateral approach and have insisted on direct, 
bilateral talks between themselves and the U.S.
    The Bush Administration is right that the challenge posed by North 
Korea is not simply a bilateral matter between the U.S. and DPRK, North 
Korea's neighbors and others in the international community have a huge 
stake in the outcome of the crisis, and they should therefore 
participate in both the development and implementation of any solution. 
At the same time, it is clear that mutual threat perceptions between 
Washington and Pyongyang are a central factor in the current situation, 
especially on the nuclear issue, and that any solution will have to 
deal with the particular requirements of those two protagonists 
(including the North Korean requirement for security assurances from 
the United States and the U.S. requirement that commitments by the DPRK 
be verifiable).
    In these circumstances, it is reasonable to begin the negotiating 
process on two separate tracks. The U.S. and North Korea would engage 
in direct, bilateral talks, primarily on the nuclear issue. In 
parallel, a multilateral group would convene that could include the P-
5, Japan, the two Koreas, the E.U., and Australia. North Korea would 
have a place reserved for it in the group but would not be required to 
participate from the outset. Indeed, at the outset, the multilateral 
group would serve primarily as a mechanism in which the U.S. could 
consult the others on its approach for handling the nuclear issue in 
the bilateral talks. It might enable the U.S., in some sense, to 
represent the views of the others in its talks with North Korea and to 
discuss solutions with the North in which the others would play a 
significant role.
    Eventually, perhaps after a general framework for resolving the 
nuclear issue had been developed bilaterally, the multilateral forum 
would become the umbrella, or steering group, under which various forms 
of engagement with North Korea would take place. Under that umbrella, 
some combination of participants (including the DPRK) might discuss 
North Korea's energy requirements; another combination might work on 
food aid and other humanitarian needs; another might address Northeast 
Asian transportation links; and so forth. Further bilateral engagement, 
including DPRK-Japanese normalization talks and any other U.S.-DPRK 
talks, could take place within this multilateral framework, with the 
steering group meeting from time to time to take stock and coordinate 
efforts.
    Explicit North Korean approval of this framework for engagement 
should not be a requirement for getting the U.S.-DPRK bilateral talks 
on the nuclear issue underway. What should be a requirement is support 
from the other participants. They should agree that, in exchange for 
the U.S. getting the talks started bilaterally, they would participate 
in the multilateral process, bear their fair share of the 
implementation burden, and press the DPRK to join the multilateral 
framework at the appropriate time if it wants to reap the benefits of 
engagement.
    This suggested approach is one of any number of promising variants 
that might be devised. The U.S. Administration is reportedly exploring 
with interested parties a variety of formulas that may involve 
bilateral talks within a multilateral framework. The precise formula is 
less important than the need to get talks on the nuclear issue started 
right away and the need for North Korea's neighbors and the wider 
international community to recognize their responsibility for helping 
to meet the challenge North Korea has posed.

Avoiding negotiations under duress
    Another stumbling block in the way of finding a solution is the 
preconditions that both Pyongyang and Washington seem to have 
established for negotiations on the nuclear issue. The North Koreans 
have suggested that, before their nuclear program can be addressed, the 
U.S. must first provide assurances about the DPRK's security. The U.S. 
has indicated that, before any such assurances can be discussed, the 
North must first convincingly dismantle its nuclear program and that, 
until then, the U.S. is willing to meet only for the purpose of 
discussing how Pyongyang is prepared to carry out such dismantlement.
    Such preconditions are a recipe for paralysis. But there are steps 
the two sides can take in parallel, before the talks begin, to increase 
prospects for success--and to ensure that neither side will have to 
negotiate under duress. North Korea should undertake that, while the 
talks are underway, it will not reprocess its spent fuel and it will 
permit the International Atomic Energy Agency to return to Yongbyon for 
the purpose of re-applying monitoring seals to its reprocessing 
facility. For its part, the U.S. should pledge that, as long as those 
seals are intact, it will not engage in military action against 
Yongbyon and will not support United Nations sanctions against North 
Korea.
    The U.S. pledge, which could be provided in writing at a senior 
level, would temporarily preclude two forms of pressure about which the 
North Koreans have expressed serious concern--namely, U.S. military 
strikes and Security Council sanctions. While the DPRK pledge would not 
restore the entire freeze at Yongbyon (e.g., would not halt the 
recently re-started operation of the 5 mw reactor), it would remove, 
also temporarily, the most urgent threat posed by North Korea--namely, 
its ability to reprocess enough plutonium to have an arsenal of six or 
more nuclear weapons within about a year.

Presenting a clear choice
    Whether in an initial bilateral phase or a subsequent multilateral 
phase, negotiations with North Korea will only succeed if Pyongyang is 
given a clear choice between a much brighter future without nuclear 
weapons and a much bleaker one with them. That means the U.S. and 
others who will engage with the North must come prepared with both 
carrots and sticks.
    The U.S. Administration is right that the North Koreans should not 
be rewarded for coming into compliance with existing obligations. What 
that means is that their illegal uranium enrichment program and their 
provocative lifting of the plutonium freeze should not entitle them to 
a better deal than they had under the 1994 Agreed Framework. Indeed, 
they should pay a penalty for those actions. For example, instead of 
expecting in any new negotiations to have the Agreed Framework restored 
intact (or even improved from their perspective), they should recognize 
that they may have to forfeit some of the features they favored (e.g., 
nuclear reactors) or be required to do more than under the 1994 deal 
(e.g., send spent fuel rods out of North Korea at an earlier date).
    But the principle of not rewarding the DPRK for simply living up to 
previous commitments does not mean that it should not be offered 
additional incentives for accepting additional obligations--that is, 
more for more. In exchange for credible and verifiable DPRK commitments 
that alleviate U.S. concerns and those of other interested countries, 
we and those others should be prepared to address North Korea's needs 
in the energy, food, infrastructure, and other economic areas as well 
as its concerns about its security and sovereignty. Moreover, while it 
may be tempting, given Pyongyang's checkered compliance record, to 
insist that the North Koreans first take steps to meet our concerns 
before we meet theirs, we will only succeed in inducing them to do what 
we want them to do if we adhere to the principle of simultaneity, with 
both sides moving ahead together in a carefully calibrated way.
    The vision of a better future must be credible to the North Koreans 
if we want to influence their behavior. The incentives must be spelled 
out as specifically as possible and as early as possible. But if we 
want the North Koreans to reverse the reckless course on which they are 
now embarked, the high costs of continuing on that course must also be 
made clear to them.
    That does not mean imposing penalties now, even though such 
penalties may already be justified on the basis of Pyongyang's 
behavior. At this stage, imposing penalties, especially U.N. Security 
Council-mandated sanctions, would likely result in the North Koreans 
digging in their heels or even stepping up their provocations. For the 
time being, sanctions should be held in reserve.
    But the U.S., North Korea's neighbors, and the rest of the 
international community should be sending the message now that, if 
Pyongyang chooses the wrong path--the path of acquiring nuclear 
weapons--then it can expect to be the target of a concerted 
multilateral effort to ensure that it will pay a high price for its 
choice.
    While it is premature at this stage to impose sanctions, it is not 
too early to start developing them in case they are needed. One 
approach--both as a punitive measure and as a means of impeding North 
Korea's nuclear and other weapons programs--would be for the Security 
Council to prohibit all U.N. members from exporting to or importing 
from North Korea all military and dual-use goods and technologies. Such 
an embargo could be accompanied by means of making it effective, such 
as authorization for U.N. members (or a multilateral interdiction 
force) to search suspect ships or aircraft and seize prohibited 
cargoes.
    To send the message that choosing nuclear weapons will entail huge 
costs, the international community must speak with one voice. But 
clearly, the most important voices will be China and South Korea. 
Chinese leaders should use their private channels to tell their 
obstreperous old friends that a North Korean nuclear weapons capability 
is unacceptable to China and that China will not use its veto to block 
U.N. sanctions if North Korea does not heed its advice.
    The message from Seoul is probably even more important. But so far, 
South Korea's new president, Roh Moo-hyun, has spoken as if a peaceful, 
diplomatic solution can be achieved with only carrots and no sticks. 
President Roh and his Administration must be frank with Pyongyang that 
North-South engagement cannot be insulated from the nuclear issue. They 
must convey clearly that, as much as the new government in Seoul wishes 
to move forward with North-South reconciliation, a DPRK decision to 
become a nuclear power would put a brake on inter-Korean engagement and 
make it impossible to go ahead with business as usual.

Pursuing a broad agenda with North Korea
    Taken together, the issues that the U.S., ROK, the DPRK's other 
neighbors, and other members of the international community would wish 
to pursue in negotiations with North Korea are broad and diverse. Those 
various agendas overlap considerably, but they are not identical and 
there are differences of priority. Such diversity can be accommodated, 
however, by establishing a multilateral umbrella (as discussed above) 
under which a variety of bilateral and multi-party engagements can take 
place.
    The nuclear issue deserves the highest priority. It should be 
addressed, at least initially, in U.S.-DPRK bilateral talks, although 
elements of a possible solution (e.g., IAEA verification, security 
assurances) might be worked out and implemented in a multilateral 
framework.
    The Bush Administration has previously spoken of pursuing a 
``comprehensive'' agenda with the DPRK that, in addition to the nuclear 
issue, would cover North Korea's missile exports and indigenous long-
range missile programs, conventional military forces and military 
confidence-building measures, and humanitarian and human rights issues. 
A number of these items might lend themselves to multilateral 
attention, while a few others could be pursued bilaterally.
    North Korea's neighbors each have similarly wide-ranging matters to 
take up with the DPRK. For Japan, the list includes the question of 
Japanese citizens previously abducted by North Korea, the threat from 
medium-range No Dong missiles, provocative DPRK actions such as sending 
spy ships into Japanese waters, and large-scale Japanese assistance as 
a form of compensation for Japan's colonization of Korea early last 
century. For China and Russia, the list includes a broad array of 
political and economic questions. The inter-Korean agenda between the 
DPRK and the ROK is, of course, the broadest agenda of all, dealing 
with every facet of the process of reconciliation between the two 
halves of the long-divided Peninsula.
    The content of multilateral engagement with North Korea is too 
complicated and diverse to expect to resolve all the issues at once, as 
part of a large package. It would be essential to proceed 
incrementally.
    When the U.S. Administration announced its comprehensive agenda 
with North Korea in the summer of 2001, it said that it recognized that 
progress on the various agenda items could not be made at the same 
speed. Nonetheless, it called for making headway on all the issues 
``across the board.'' It was not prepared to conclude separate 
agreements on some issues if deliberations on other issues were not 
getting anywhere.
    All of the items on the Administration's comprehensive agenda are 
important and should be pursued with Pyongyang. But insisting on 
progress on all issues as a condition for reaching agreement on any of 
them could lead to a prolonged stalemate across the board, and could 
preclude near-term agreements on items of considerable urgency (e.g., 
stopping North Korean missile exports). Therefore, while progress 
should be sought on all items on the comprehensive agenda, they should 
not be tightly linked. If agreements can be reached on individual items 
that serve U.S. and allied interests, they should not be held hostage 
to further progress on other matters.

Coordinating with South Korea
    To improve prospects for success in engaging with North Korea, the 
United States and North Korea's neighbors must seek to coordinate their 
approaches to the negotiations. But by far and away, the most crucial 
coordination will be between Washington and Seoul.
    In the coming weeks and months, the Bush Administration and the new 
administration of President Roh Moo-hyun should make every effort to 
forge a common approach for dealing with the North on the nuclear 
issue. In the absence of such a common approach, Pyongyang will have 
little incentive to come to agreement and every incentive to prolong 
the crisis in the hope of exacerbating differences between the U.S. and 
ROK and of stoking up anti-Americanism in South Korea.
    But forging a common approach is not only essential for dealing 
effectively with the North on the nuclear issue. It is also crucial to 
the future of the U.S.-ROK bilateral relationship. That relationship 
has deteriorated significantly over the last few years, in part because 
of the widely-shared perception in the South that the Bush 
Administration's tough policies and rhetoric toward Pyongyang have 
increased tensions on the Peninsula and become an obstacle to progress 
in inter-Korean relations. The failure to narrow the large gap that 
currently exists between Washington and Seoul on policy toward the 
North could put in jeopardy a bilateral relationship that is a key to 
stability in the Northeast Asia region and to America's influence and 
military presence throughout East Asia.
    Achieving a common approach will require intensive bilateral 
consultations between the two administrations in the period ahead. But 
it will require more than putting a good consultative process in place. 
It will require both sides to make real adjustments in the positions 
they have taken so far. At a minimum, it will require the U.S. 
Government to swallow hard and agree to begin bilateral talks with a 
North Korean regime it doesn't trust and finds distasteful. It will 
require the ROK Government to swallow hard and make clear to the North 
that its becoming a nuclear power would inevitably place serious 
limitations on the assistance that Seoul can provide and on the 
progress that can be expected in inter-Korean relations.
    Mr. Chairman, the news media have reported in recent days that the 
Bush Administration has come to the conclusion that North Korea is 
determined to reprocess its spent fuel and become a nuclear power. 
Instead of using military force or negotiations to try to prevent such 
a development, the Administration, according to these news reports, is 
inclined to accept it as inevitable, to begin preparing to deal with 
its consequences, and to fall back to a policy of trying to stop a 
nuclear-armed North Korea from selling fissile material or other 
sensitive technologies to hostile states or terrorists.
    I hope these reports are inaccurate. The regime in Pyongyang may 
well have decided that its survival depends on having nuclear weapons 
and that it must therefore proceed as rapidly as possibly to amass a 
small nuclear arsenal. But we certainly don't know that at this stage. 
And given the huge stakes involved, it would be a monumental error if, 
out of a moral aversion to negotiating with regimes we don't like, we 
failed to explore face-to-face whether North Korea was indeed 
irrevocably committed to nuclear weapons and whether a deal could be 
worked out that credibly ended the DPRK's nuclear program and served 
the interests of the U.S. and its friends and allies.
    Success in any negotiations with North Korea is far from assured. 
If North Korea has indeed decided that it must have nuclear weapons--or 
is unwilling to accept a reasonable arrangement--then the talks will 
fail. In that event, the U.S. will have no choice but to resort to a 
policy of pressure, isolation, and containment. But before resigning 
ourselves to such a worrisome course, we should first find out, at the 
negotiating table, whether a much better outcome is possible.

    The Chairman. I am advised that the vote is going to occur 
in 5 to 10 minutes. There are additional speeches being made at 
the moment. So, if we can have a 7-minute limit, I will 
commence questioning, and if the vote comes in the middle of my 
questions, members should feel free to leave and head to vote. 
Or we will recess when the vote comes, and come back so we can 
all hear each other.
    Let me just ask as a starter: It is ideal that each of the 
parties, China, Russia, Japan, South Korea, have objectives. We 
understand that they might be very diverse and that these be 
incorporated, as you have suggested, whether we are talking 
bilaterally or multilaterally in one or more rooms. But what if 
the situation exists here in which the interest of these 
countries are so diverse and really so different from our own 
that, in fact, this kind of coalition becomes impossible?
    For example, what if the other countries are not as 
concerned as we are about nuclear proliferation? We just assume 
that they all would be, and that they would see security risks. 
But what if the South Koreans come to the conclusion that 
really the North Koreans would not use those weapons on other 
Koreans? And, as a matter of fact, some South Koreans have 
professed that the United States is the provocative instrument 
in this situation. It is very, very difficult to think of a 
multilateral approach, and yet the necessity of working with 
our South Korean friends is obviously of the essence.
    In other words, without drawing the Iraq problem into this 
one, because this one is big enough, what if a situation exists 
in which our national interests appear to be diverse from other 
major countries to such a point that they are prepared, 
physically, to say, ``We are not a part of those objectives?''
    So then, at that point, what do we do? In other words, we 
all would agree, at least, I think, today, that the building of 
more nuclear weapons, the genie out of the bottle, the 
dispersal of uranium in ways it can never be found again, the 
sale of all of this to al-Qaeda or whomever else might pick it 
up, and an overt attempt by the North Koreans to sell it 
because they need the money without being covert about it at 
all--there is testimony that in small amounts, as you have 
said, Dr. Carter, it could be beyond any surveillance, even our 
very best ability to interdict this becomes impossible, so that 
the proliferation situation is immediate and intense.
    Now, under those situations we have, as you have suggested, 
the talks, but we may find out that they want to have the bomb 
anyway, as well as the ability to sell.
    We could take the containment situation which you have 
described as the worst of all alternatives, namely, just 
acknowledge they are going to have weapons, and you sort of 
hope that the regime will go away in due course of old age, 
that missile defense will work, or for some reason it will all 
work out. Or we take military action and maybe a surgical 
strike with the thought that there could be retaliation; just 
the fear the South Koreans have, or maybe the Japanese.
    Now, you know, in these stark terms, what do we do? Is this 
something that is serious enough that the United States ought 
to contemplate the fact that it might be alone again because it 
is not in the interest right now of any of the other countries 
to enter physically and dangerously in this way to the point of 
drawing the red line? As I hear about a red line, that means if 
you cross it, something happens. And something happening is 
likely to lead to a military conflict. Do we do that? Will you 
start, Dr. Carter?
    Dr. Carter. Absolutely. It is an excellent question, and it 
is important for us all to go in with our eyes open. Our 
interests are not identical to those of South Korea, Japan, 
China, Russia. There is no question about that. But you use the 
word ``divergent.'' I think they are far from divergent. They 
are not identical, but they overlap very strongly.
    Let us take South Korea and the United States. The South 
Koreans have never been as exercised about a nuclear North 
Korea as we have been. They reckon they are in trouble anyway, 
if a war starts on the Korean Peninsula. The intensity of 
violence is so great that adding nuclear weapons to that does 
not materially change the calculus for them, and they do not 
have the same global perspective that we do on proliferation. 
So, yes, there is a little bit of difference there.
    At the same time, we do have two very deep common 
interests. The first is that deterrence not be upset on the 
Korean Peninsula, and nuclear weapons could do that. That could 
make a war that would destroy much of South Korea more likely, 
and the South Koreans need to understand that they do have 
something at stake here in a nuclear North Korea.
    And second, they have a stake in North Korea not collapsing 
precipitously and on some progressive process of warming of 
relations between North and South. And that is not going to be 
possible if North Korea goes nuclear and then forces the rest 
of the world to isolate it. So their interests do, actually, 
overlap with ours, simultaneously.
    I do not know whether the new President has entirely 
thought this through. Sometimes we speak as though we don't 
understand that our interests, while not identical, do overlap. 
But the reality is they overlap strongly. That is the basis for 
the common interest, and that is why I do not think divergence 
is in the cards.
    You could say similar things about China. I do not want to 
take any more time. But you do have to walk around the table, 
at this hypothetical table where others sit as well, and say: 
What does the situation look like from their point of view? 
But, I believe, that from the point of view of everybody 
sitting at that table, a nuclear North Korea is bad medicine, 
and that is a common interest, but it is not the only common 
interest we have, and we cannot just pursue what we want. If 
you are in a common diplomatic strategy, you have to want a 
little bit what everybody else wants; if you want them to want 
a little bit of what you want.
    The Chairman. Dr. Kanter, do you have a thought?
    Dr. Kanter. Yes. This may sound excessively pedantic, but I 
think there is a useful distinction to be made between 
interests and priorities among interests. That is, I think we 
have interests that are substantially in common with those of 
the other regional actors. The problem arises because our 
priorities among interests, where you always have to make 
tradeoffs, may be different, and that is important because it 
means that the risks you are prepared to run may be different.
    At the end of the day, if it turns out that we cannot find 
common cause, then we and our allies will confront the 
consequences of the United States having to do things alone and 
that, in turn, directly impinges on their interests. They are 
not going to like that. That will help forge a common approach.
    The Chairman. Well, we have come to the end of my time, and 
we also are having a vote.
    Do you have a thought, Mr. Einhorn?
    Mr. Einhorn. I would just comment on the other part about 
the red line.
    The Chairman. Yes.
    Mr. Einhorn. Clearly, the step of reprocessing the spent 
fuel is the most worrisome, dangerous, near-term step. But I am 
not sure it is a good idea at this stage to say, ``If you do 
that, there will be inevitable consequences.'' You have to be 
prepared to followup on that threat.
    I think a better approach would be to make a proposal along 
the lines that all three of us have made. Be prepared to sit 
face-to-face with the North Koreans, but say, ``Before we sit 
down, we have to create the right environment. So you need to 
pledge that you are not going to reprocess, and you are going 
to invite the IAEA back in to seal that reprocessing facility. 
And then we will make a corresponding pledge about not 
attacking Yongbyon, a nuclear facility.''
    It seems to me that may be a better way of dealing with 
that red line. If we do what most of North Korea's neighbors 
want us to do, which is sit down bilaterally at the negotiating 
table, then, I think, they would give strong support to that 
proposal for a freeze on reprocessing.
    The Chairman. Very well. We will recess and come back as 
soon as members can vote. Thank you.
    [Recess.]
    The Chairman. The hearing is reconvened. The Chair will 
take advantage of the fact that no one else has reappeared to 
ask another question.
    Secretary Carter, you mentioned the military option is not 
your preference or anyone's, but if there was to be a military 
option involved here, obviously the fear on the part of most 
people that this might lead to a retaliation of guns that are 
above Seoul or other means that North Korea might employ. 
Certainly this has been a fearsome prospect for our South 
Korean friends and for others.
    What are the reasons to believe that a strike upon the 
plutonium facility would lead to these consequences? Or is it a 
problem that we know so little about the South Korean mind-set, 
and the talks or the communication has been so sparse in the 
past that it is almost random as to what might occur at that 
point? From your own experience analyzing this through the last 
administration which you were involved, what views do you have?
    Dr. Carter. The North Korean military is told all the time 
that we are going to attack them. North Korea is in the third 
generation of Stalinist political indoctrination, and so you 
cannot rule out the thought that even though it would be 
clearly self-destructive that if the order were given for North 
Korean forces to pour over the DMZ, they would do so. It is 
also possible that any military action by us would lead, 
through the unraveling of move/countermove and miscalculation/
counter-miscalculation, to a conflict which North Korea did not 
initially intend to be a full-scale war, but could end up as 
full-scale war. So there is no question that if one 
contemplates a strike of the kind that we described that that 
could be the consequence.
    At the same time, I think the North Koreans also have to 
look at this situation and ask themselves whether at that point 
they would have the choice whether to lash out to the South, at 
their South Korean brethren, and to initiate a war which we are 
absolutely confident would be over within a few weeks and would 
lead to the destruction of the North Korean regime. It would be 
helpful also if at that time China indicated to North Korea 
that it was not prepared to come to its assistance, if through 
its nuclear ambitions, North Korea had precipitated such a 
strike.
    So we should try to contrive a situation that leads to the 
result we want, namely setting back the nuclear program without 
leading to that larger war. But I think we would be foolish not 
to think that there was a reasonable possibility that that 
larger war would eventuate, and that is what makes it so risky.
    The Chairman. Thank you.
    I call upon the distinguished ranking member for his 
questions.
    Senator Biden. Thank you very much, Mr. Chairman.
    I truly appreciate the three of you and your testimony. And 
there may be slightly different emphasis in priorities, but all 
of you end up at the same place basically, and coming from 
three such distinguished people, I hope people are listening 
beyond this room.
    And I want to make it clear in case my mother is watching: 
Mom, if you get up to walk away from the television, I was not 
one of the guys who said, ``My mother wants it both ways.'' It 
was not me.
    So I want the record to show that in case she was walking 
away and heard that phrase and thought maybe I used it----
    The Chairman. Right.
    Senator Biden. I am not going to identify the gentleman, 
Mom, who said it, but it wasn't me. I know you never want it 
both ways.
    There is an irony here, it seems to me, and I think maybe 
there is an opportunity as well. The irony to me is that--and I 
am not connecting the two in Iraq and North Korea in terms of 
what the solutions to each are, but the irony is here: The 
administration has made a very compelling case, at least home, 
that containment is not an option with regard to the much less 
or least dangerous foe, Saddam Hussein, but containment--at 
least the signal being sent is containment may be an option 
with regard to the foe that is capable of doing much more 
severe damage to us short-term, long-term, and interim-term in 
my view.
    And it seems to me ironically, if we were to move in the 
direction the three of you suggest with regard to North Korea, 
it may have some ancillary benefits beyond what we may find out 
and what our options may be in clarifying our situation with 
regard to North Korea. And that is that I think part of the 
problem is we tend to--and those of you who are genuine 
regional experts, as well as strategists, we tend sometimes--I 
am not suggesting that you do this, but we up here tend not to 
connect the dots. We tend to think that we can have clearly 
enunciated positions on one set of policies and even if they 
are at odds with a set of principles stated or enunciated in a 
second set of concerns we have, and they do not necessarily--as 
if people only read in time zones.
    And so my problem is with the failure to understand that a 
pre-condition to enhancing our prospects of success in whatever 
action we take, diplomatically, militarily, economically, in 
any way, is that we have to demonstrate we are willing to talk. 
It is a pre-condition. I do not know what we lose; I do not 
know what we lose by talking, even though I do not think any of 
the five of us or the six of us here are particularly 
optimistic that we would get a result as a consequence of those 
talks that would lead to a complete cessation of concern here.
    So what I would like you to expand on a little bit for me 
if you are willing to, is: What do you think is the root of 
this? What is the root of the present position adopted by the 
administration, a refusal to talk other than in a forum that 
the rest of the participants indicate they will not participate 
in, so it is not the table?
    What is at the root of that? I mean, what could be--not 
that you know specifically, but I mean go through it, analyze 
for me: What are the possible lines of reasoning that would 
lead one to conclude that we do not talk at all? Is it because 
they truly believe we can contain? I mean, do you think that is 
it? Or do you think it is because they think if we do not talk, 
North Korea will blink and accommodate what we want done 
anyway? Or is it because they think there is going to be a 
breakthrough diplomatically, not with North Korea, but with 
South Korea and China and Japan?
    I mean, what are the--give me the positions. If you were 
making the case not to talk, what are the arguments you make 
that have any credibility?
    Dr. Kanter. Let me try my hand in here. I am responding in 
the spirit of ``let me try and make the case'' rather than 
convey the Bush administration's foreign policy.
    Senator Biden. I realize that it is not your position. I 
just wanted--I am trying to figure this out.
    Dr. Kanter. First, as I understand the administration's 
position, the United States is willing to talk to North Korea. 
It has said it is willing to talk. The question is: Under what 
circumstances? With what pre-conditions? And in what forum?
    Senator Biden. Bilateral discussions, let me be precise. We 
are all--you all are saying there is no option at this moment 
but bilateral discussions. You may have an ancillary discussion 
going on, you may have a large room, we may be in a--everybody 
may be in a big hotel and we are in a small room with a--you 
know, that is all--but there is a flat, so far, refusal by the 
President of the United States to say he is prepared to talk 
one on--not necessarily ``he,'' but his negotiators, one on one 
with the North Koreans, notwithstanding with what Mr. Armitage 
said, who was severely rebuked for having said what he said 
before our committee.
    Dr. Kanter. He is tough.
    Senator Biden. Well, he can handle it----
    Dr. Kanter. He can take it.
    Senator Biden [continuing]. But I am just saying he was 
severely rebuked.
    Dr. Kanter. As I have stated, North Korea is a multilateral 
problem that requires a multilateral approach. But if the 
United States just says, ``Well, look--you know, we will do 
this all bilaterally. Thank you very much,'' I think the other 
countries with important stakes in this issue will be all too 
happy to hold our coats and let us go off and do it and, 
frankly, not be willing to bear some of the burden, bear some 
of the risk that is entailed in dealing with the North Korea 
issue.
    So I think that there is a good reason to try and make sure 
that whatever the modalities that everyone is pretty much on 
the same wave length before you engage with North Korea, or we 
are going to be there alone.
    Senator Biden. So we all agree on that. I assume that that 
has to be done. I mean, I assume that or at least I know from 
the South Korean position, because I have spoken to them, and I 
assume from the Japanese and Chinese position that they are 
prepared to work out with us as we seek a common approach, but 
that they are not prepared to set the modality as you guys use 
the--you know, it is kind of a foreign policy phrase; the 
American people wonder why we make everything sound so 
complicated--you know, the shape of the table, they do not want 
to sit down at the table initially, with us at the table and 
the North Koreans.
    They want to sit down with us at the table; they are 
prepared to sit down with us now and talk about what they think 
about whatever our enunciated policy is and try to work out 
something, but they are not prepared to go to Pyongyang or some 
hotel in Hawaii or in Tokyo, whatever, to sit down with us in 
the same room. They are saying, ``Go talk first.'' Is that not 
what they are saying?
    Dr. Kanter. Again, trying to make the case, if you want to 
have confidence that the folks who say they are with you really 
are with you, they ought to be there with you. If there are 
other ways to achieve that confidence, then it gives you some 
more flexibility to engage in direct talks knowing that they 
are with you and they are doing their thing in their way.
    Senator Biden. At what point do you say, knowing the clock 
is ticking, going to the reprocessing, ``They are not with me. 
They are not going to do it''? Now, we are into the situation 
that the Senator, that the chairman talked about where our 
interests are different; or our judgments are different, if not 
interest.
    Do we say, ``OK. They are not with us. They are not going 
to sit down with us. They are not willing to come up with a 
common strategy,'' whatever--however you want to characterize 
it? At what point do we say--with the clock ticking toward 
reprocessing, the possibility of reprocessing, at what point do 
we say, ``Well, we are going to do it alone''?
    I mean I thought you guys, all three, are saying, ``It is 
time to talk.''
    So I am trying to figure it out. I mean, is the decision 
you think that they think they can contain, that this 
administration thinks they can contain North Korea? Have some 
adopted the position that the South Koreans have, that this is 
not that fundamentally different if they have six more nuclear 
weapons? I mean, what--yes, please.
    Mr. Einhorn. Senator Biden----
    Senator Biden. Oh, my time is up.
    Mr. Einhorn [continuing]. My guess is that a number of 
those neighbors of North Korea would be happy to sit down in 
multilateral talks. Their concern is that the North Koreans 
would not do it. And because the North Koreans have been so 
obstinate on the point, they are saying to the United States: 
Look, why do you not sit down with them bilaterally? Maybe 
later we can join. We are not opposed to multilateral. It is 
just that it would not work multilaterally from the beginning.
    And as to your question on when is the time, I think the 
time is now for the administration to say, yes, we are prepared 
to sit down bilaterally. I think perhaps they could put in 
place a parallel, multilateral structure that eventually could 
become the umbrella, the multilateral umbrella we are looking 
for, but I think the time is now.
    Senator Biden. What is their reasoning?
    Dr. Carter. I do not have any particular insight or 
visibility into the administration. My impression is that they 
are--that our administration is wrestling with the problem and 
trying to put together a strategy that answers all these 
questions: Why talk to North Korea in the first place? What 
kind of agreement are we after? What is the modality for talks?
    It is unfortunate that we are short of time to come up with 
a strategy of that kind. That is because the North Koreans are 
trying to drive the train as rapidly as they can, but this is a 
hard problem. It is a multi-body problem, as we say in physics. 
It is not just us. It is not even just us and the North 
Koreans. There are others involved.
    And one thing that I think both of these negotiators have 
emphasized is the effect that getting talks started would have 
of slowing the pace of events down. That is very important. And 
if we can arrive at some modality for beginning talks, and the 
condition on both sides for the talks is that we slow the ball 
down and in particular that they slow the ball down at 
Yongbyon, then we have a little bit more time to figure all of 
this out. So we do not have to have figured everything out 
before we embark. And I think that is important. The pace of 
events, the momentum as Arnie called it, is pretty fearsome 
here.
    Senator Biden. Thank you.
    The Chairman. Thank you very much, Senator Biden.
    Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman. And thank you 
for holding this hearing. I missed the previous hearing on 
North Korea. I was attending the Columbia funeral, and I 
apologize for my absence. Hopefully, we can hold some 
subcommittee hearings on North Korea as well because there are 
a number of facets to the problem that I think bear looking at 
in totality. Time is short, and I think we need to have some 
intense focus.
    First, let me say clearly that from my perspective, the 
United States must not allow North Korea to develop nuclear 
weapons, period. And I have also contacted the NSC of the 
administration, and they do not support nuclear weapons being 
developed in North Korea as I think Mr. Einhorn had said in his 
testimony.
    They are not saying, OK, you can go ahead and develop them. 
We are going to try to contain them once you develop them, 
North Korea. They do not support that position either of North 
Korea developing nuclear weapons. It should not even be a 
question.
    Kim Jong-il is one of the largest proliferators of missiles 
now, selling them to the very worst parts of the world where 
the intent to destroy America is clear. He has nuclear weapons. 
The selling of these weapons would surely follow. He would have 
a nuclear storehouse open for business.
    In retrospect, it is clear to me that the Agreed Framework 
did not work. It was nothing more than a tactic of deceit used 
by the North Koreans to lull the United States into thinking 
that postponing a problem is as good as dealing with it. We now 
have evidence that the North Koreans began pursuing nuclear 
weapons almost before the ink was dry on the agreement that 
they made with the United States to abandon this destructive 
path.
    This week's events, where North Korean MiGs shadowed an 
American observation plane in international airspace make it 
clear upon playing the one and only card they have: Escalating 
tensions to the point of forcing America to pay up once again.
    These are dangerous tactics by Kim Jong-il and his 
Stalinist regime. We cannot afford to give the North Koreans 
the impression that their tactics are working, that they will 
pressure the President--pressure this administration into 
caving and negotiating with the blackmail artist. And that is 
exactly what Kim Jong-il wants to do and is doing.
    He has launched a surface-to-ship missile as a test. He has 
sent MiGs into South Korean airspace. He sent even people, 
gardeners I guess, across the DMZ line, all as a way of trying 
to rattle the international cage and to do two things: Have us 
leave him alone, the international community to leave him 
alone; and send money.
    Engaging in a sequel of the failed Agreed Framework, not 
only risks our immediate security in the region, but it allows 
Kim Jong-il to proliferate any and all missile and nuclear 
technology he can develop. Now, perhaps if we had started off 
with the Agreed Framework being a multilateral approach, they 
would have had more leverage to get the necessary concessions 
from the North that could have prevented this current mess. 
Specifically, it should have been an absolute requirement that 
the nuclear fuel rods and other materials in the Yongbyon 
facility be removed.
    As we have seen, the agreement cannot guarantee a freeze in 
the North's nuclear pursuit. It did not freeze it, but the 
agreement could have at least removed the material we knew they 
had.
    Now, I have been following this issue for some time from 
another perspective and here I want to speak for myself and a 
partner of mine that is no longer here, Paul Wellstone, and 
that is on the human rights issue. And I am--frankly, I am very 
disappointed that you just waved past that one.
    We have held hearings in the Judiciary Committee on the 
atrocities. And let me just give you a few eyewitness 
testimonies that we have had of people testifying, of watching 
North Korean guards suffocate newborn babies, of people that 
have had to live on tree bark as they escaped from the regime, 
of mothers who have given their children rat poison rather than 
watching them die slowly from starvation. These are people who 
have been tortured, starved and executed for no reason other 
than the bad fortune of being born in North Korea under the Kim 
Jong-il regime.
    And we do not know exactly how many it is. Some people 
think it is one to two million who have died of starvation over 
the last 5 years. There are somewhere between 30,000 and 
300,000 now living off the land in China fleeing this regime. 
They operate a Gulag. The North Koreans operate a Gulag system 
of a large, fenced-in area that is a mining camp, and you go in 
as a political prisoner and the likelihood of you coming out is 
small.
    I am presently reading, ``The Aquariums of Pyongyang,'' it 
is about a young boy that went in and made it out some way; ten 
years in one of these Gulags. Or the book, ``Eyes of the 
Tailless Animals,'' about serving in one of these Gulags.
    These are horrific conditions. This is probably the worst 
systematic human rights' abuses by a government on its people 
anywhere in the world today. Maybe you argue that Sudan is 
there with it, but it is in the top two or three. This is 
horrific. And we are going to just walk past that one and say, 
``We cannot deal with it in this setting''?
    China is the country most directly able to put pressure on 
this regime by letting the people of North Korea simply stay in 
China instead of sending them back in a procedure called 
refoulment. I mean they could at least be forced to live up to 
their own international obligations to allow these people to 
stay in China. The people will vote with their feet, and many 
already have. They will leave North Korea if given the chance. 
And then this failed State of North Korea will have that 
pressure put on them.
    To merely make another deal that will not be abided by is 
not in the security interests of the United States, and it is a 
malicious neglect of the horrific behavior of this regime.
    Now, we should not cower to the demands of this dictator 
who is starving and torturing millions of his own people, as 
well as kidnaping citizens from Japan. I met this week with 
three family members from Japan and four members of the 
Japanese Diet. These three people had family members who had 
been abducted, kidnaped by the North Koreans 20 years ago. And 
last year the North Koreans admitted, ``Yes, we did it. We are 
not going to send them back or let the family members come 
back. Or if we do, we are going to keep their children in North 
Korea.''
    It is a multilateral issue. We need to work with the 
Japanese, the South Koreans, the Chinese, the Russians at 
least, and probably in the future, we are going to have to work 
with the Taiwanese as well, if North Korea continues operating 
in such a threatening manner.
    The world has urged the United States to take a 
multilateral approach on Iraq and we have, and I do not see why 
we should be doing any less with North Korea. This is a very 
troubling issue with all these prongs within it, and I think 
that we have got to deal with the various facets of the prongs.
    And one of the key routes that we have not even been 
addressing, that none of you have addressed here, is the real 
key of what these refugees do represent, of people willing to 
walk. And the Chinese Government that has signed agreements 
with the UNHCR, High Commission on Refugees, that they will 
treat refugees without sending them back into harm's way, and 
now the Chinese are saying they are economic migrants, but in 
the very agreements that they signed, if there is a dispute 
between the two bodies, this is to be submitted to arbitration. 
The Chinese say they are economic migrants; the world says they 
are refugees. This is to be submitted to binding arbitration, 
and the Chinese should be forced to live up to their own 
obligations to these refugees.
    And if you allow these refugees out, they will come and the 
international community and the United States can work with 
them. And this is a key area that we should be working on and 
pressure that we should apply.
    Mr. Chairman, I have taken past my time.
    If one of you would like to respond, I would particularly 
appreciate a response on the refugee issue, why that has just 
been so much put aside and not even spoken hardly about.
    The Chairman. Please proceed.
    Dr. Carter. I was not actually going to address the 
refugees issue. Maybe someone who knows more about that can.
    I would like to address or just second what you said about 
the nature of the North Korean regime. The last time I appeared 
before this committee, we were not just talking about the 
nuclear issue, but the larger question of North Korea's destiny 
and future.
    I was explaining that in 1998 when I was first given the 
task of looking at North Korea in the large, the so-called 
Perry process, run by former Secretary of Defense Bill Perry, 
we came to basically the same assessment you did of the North 
Korean regime. The evidence, the kind you have adduced, is 
abundant. It is a remarkable situation. This is a third 
generation of Stalinism which we have not seen anywhere else in 
the world.
    We looked at a couple of possibilities that are still 
possibilities to the United States. One is to try to undermine 
the North Korean regime, and we looked quite hard at that. And 
in the end, we set that aside for two reasons. The first was 
that we could not come up with any realistic plan or prospect 
for accomplishing that. It is not like Afghanistan where you 
sort of throw in an ingredient of disorder and you can expect 
an uprising. We could not produce Presidential quality 
information that a strategy of undermining was likely to 
succeed any time soon.
    Senator Brownback. But you know these refugees have walked 
already. A number of them have walked----
    Dr. Carter. You are talking about as a whole----
    Senator Brownback [continuing]. Into China already.
    Dr. Carter. I understand the refugee situation. I am 
talking about----
    Senator Brownback. I am not talking about undermining here, 
but talking about even the Indochina situation in the 1970s 
that did not undermine the regimes, but it put pressure on 
them, but at least the people got out.
    Dr. Carter. No, I was not suggesting that you were 
suggesting the strategy of undermining. I am trying to respond 
to the general question about the North Korean regime, how long 
can it last.
    And one possibility is to try to hasten what human nature 
and history suggests will happen eventually in North Korea. And 
we looked at that and I would be happy to talk to you further 
about our analysis of that, but in the end, we could not figure 
out any way to do that quickly and the nuclear issue was 
pressing. The nuclear issue was on a time scale of months, 
where the larger question of North Korea's destiny was on a 
time scale of years, maybe even decades.
    The same thing can be said of reform. Many people have 
suggested that North Korea follow the path of reform, Deng 
Xiaoping-style reform. One would like to see it do that also. 
North Korea certainly does not show any inclination to do that. 
But in any event, that is a long-term project and we have a 
short-term emergency with the nuclear problem, and that is the 
one that we have been addressing here.
    But what you say about the nature of the North Korean 
regime and the question of its long-term future, I could not 
agree with more.
    Senator Brownback. Well, I want to dispute the answer, but 
my point being that the refugees can be a clear key to a near-
term pressure on the North Korean regime. And the key, or the 
door there is China. It is an unguarded border. I have been 
there. I have met with many of the North Korean refugees, and 
they will walk if China will simply live up to its 
international obligations against refoulment. That is the 
simple direct point, and it is a near-term answer.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Brownback follows:]

              Prepared Statement of Senator Sam Brownback

    In retrospect, it is clear that the Agreed Framework was nothing 
more than a tactic of deceit used by the North Koreans to lull the U.S. 
into thinking that postponing a problem is as good as dealing with it. 
We now have evidence that the North Koreans began pursuing nuclear 
weapons almost before the ink was dry on the agreement they made with 
the U.S. to abandon this destructive path.
    This week's events, where North Korean MiGs shadowed an American 
observance plane in international airspace make it clear that the North 
Korean regime is intent upon playing the one and only card they have: 
escalating tensions to the point of forcing America to pay up once 
again.
    Some of my colleagues have chided the administration for not 
calling the tensions in the Korean Peninsula a ``crisis.'' These 
colleagues have also criticized the administration for refusing to cave 
into the North's demand for bilateral negotiations on the nuclear 
issue. Unfortunately, while these criticisms are, I'm sure, well 
intentioned, they miss the major point--which is that engaging in the 
sequel to the Agreed Framework not only risks our immediate security in 
the region, but it prolongs the efforts of a dictator intent upon 
proliferating any and all missile and nuclear technology he can 
develop.
    Perhaps if the Agreed Framework had insisted upon a multi-lateral 
approach, there would have been more leverage to get the necessary 
concessions from the North that could have prevented this current mess. 
Specifically, it should have been an absolute requirement that the 
nuclear rods and other materials in the Yanbian facility be removed. As 
we have seen, the agreement could not guarantee a freeze in the North's 
nuclear pursuit--but the agreement could have at least removed the 
material we knew they had.
    Now is the time to remain calm, steady, and strong. We cannot cower 
to the demands of a deranged dictator who is starving and torturing his 
own people--as well as kidnapping citizens of surrounding countries. 
The world has urged the U.S. to take a multi-lateral approach on Iraq. 
We have. Why should we do any less with North Korea?

    The Chairman. Thank you very much, Senator Brownback.
    Senator Dodd.
    Senator Dodd. Thank you very much, Mr. Chairman.
    Let me commend you once again. This has been a wonderful 
testimony this morning and very, very helpful. Dr. Kanter, 
yours is not prepared testimony I gather, or at least we did 
not get copies of your testimony.
    Dr. Kanter. No, I am sorry, Senator. I just got back in the 
country and had to speak from notes.
    Senator Dodd. Well, we will get it from the transcript 
here. It was very, very worthwhile. And I thank all three of 
you.
    And I thank you, Mr. Chairman, for this. It was most timely 
and appropriate.
    Mr. Chairman, I want to ask unanimous consent--there is a 
yet unpublished article that is going to appear shortly by 
Kevin Kim. He was a Fulbright scholar in South Korea between 
2001 and 2002 and has written a very, very good article which 
is going to appear shortly--I am trying to--where is that going 
to appear?
    Staff Member. The Institute of Public Affairs.
    Senator Dodd. The Institute of Public Affairs is about to 
publish this. It is not published yet, but, Mr. Chairman, I 
think you might find it worthwhile, to sort of complement, in a 
little more blunt terms in some ways, but complement what has 
been said here this morning.
    And I have, as much as I am obviously--trying to figure out 
what motivates the North Koreans is something we could spend 
days trying to sort out here. But let me ask you to focus your 
attention, because I am trying to sort out what the motivations 
are here in terms of our own administration's view of this. And 
obviously there have been varying reports.
    But let me ask you to comment on something, and I am a bit 
concerned that there seems to be almost, by some anyway, a 
desire to delay taking any action on the North Korean issue 
until there is some ``resolution of the Iraqi issue.'' And the 
argument being and I will make the argument--I am not 
suggesting that anyone has made this argument--that in a sense, 
if Iraq turns out well as a result of the use of military 
force, and I am not being terribly articulate in describing 
this, but if that turns out well, then that may be the model of 
how we would then deal with North Korea.
    Without suggesting that that is the motivation, I am 
curious as to whether or not any of you believe that waiting 
for the resolution of Iraq is part of the motivations of why we 
are not seeing more clarity out of the administration in terms 
of how they want to proceed with North Korea.
    And second, where is this heading right now in the absence 
of doing anything else? I gather we are now going to fly F-15s 
along with these reconnaissance missions and the like. There 
have been examples, at least people who have followed the 
events in the Korean Peninsula more closely than I have, who 
indicate that in the past when these events have occurred in 
the late '70s, they were not just single events; there were 
usually a series of them that happened. And I am wondering 
whether or not you believe that we may be seeing that here.
    And if our only response seems to be providing additional 
protection, military protection, reconnaissance flights and 
sort of appearing to have sort of a quasi-military answer to 
these events as they are occurring, to what extent would you 
want to calibrate the risks of seeing this series of events 
explode into something far more serious than what we presently 
have seen?
    But I would be interested in having you try and give me 
some sense of what is the thinking going on by those who are 
advising the administration inside about how to proceed here? 
What is the rationale behind this, other than just--there is 
more than just an internal debate that seems to be going on. 
There seems to be a rationale for proceeding this way without 
having some clarity to it, and I am curious if any of you would 
be willing to take that one.
    Dr. Kanter. Senator, I do not have any great insight into 
what rationale the administration is pursuing here.
    I would say, however, that I see no evidence that the 
administration is, as I think you put it, is waiting for a 
successful outcome for Iraq and that will become the model for 
dealing with North Korea. I see no indication of that 
whatsoever, and I think President Bush has said repeatedly that 
North Korea is a different kind of problem than Iraq.
    I think it is fair to ask whether North Korea is concerned 
about whether it might be the next Iraq. So I acknowledge that 
there may be that North Korean concern or worry, but I do not 
believe that kind of rationale is in any way a relevant factor 
in U.S. policy.
    With respect to where is the situation headed, as I tried 
to indicate in my remarks, I think it is headed toward an 
increasingly dangerous situation, which is why I think it is 
essential that steps be taken urgently to arrest this momentum. 
And I tried to indicate some steps that I thought would help 
accomplish that outcome. That is the first step, arresting the 
momentum, freezing the situation in place, but it is only the 
first step.
    Senator Dodd. Let me throw in one additional question to 
you here. If you go back and look at the events since the 
Framework Agreement, there were obviously events that were--
decisions were delayed, between the time we promise things and 
things happen. Obviously, North Korea made a number of bad 
decisions as well here.
    To what extent, I will ask--I should add this on here: To 
what extent would it help move this along--and I know 
administrations are loathe to do this, to admit that we might 
have done things a bit differently here. But to some extent the 
admission that maybe we missed some opportunities here, would 
that help at all in trying to move this process along here?
    And I again, understanding the unwillingness of people to 
want to do this, but would that help, in your mind, if there 
was some message here that maybe some missed opportunities 
occurred on the light water reactor issue, on the economic 
assistance issues? There were periods in which those events 
were to occur and obviously some months or, in some cases, 
years transpired between the promise and the actual delivery.
    Dr. Kanter. There were obviously missed opportunities in 
the implementation of the Agreed Framework on everybody's side.
    Senator Dodd. I agree.
    Dr. Kanter. Everybody agrees with that. If you remember, 
the Agreed Framework was a phased agreement.
    Senator Dodd. Right.
    Dr. Kanter. We agreed to do certain things in phase one, 
and then additional steps in phase two. The two sides never got 
beyond phase one.
    Senator Dodd. Yes.
    Dr. Kanter. And certainly we are disappointed in that 
because we are facing one of the consequences of that which is 
we did not get the fuel rods out, which came in a later phase, 
and now the fuel rods are still there.
    I presume the North Koreans are disappointed that we did 
not get into further phases with them either, other things that 
were promised in that agreement. So from that point of view, 
there are plenty of regrets all the way around. The larger 
picture that was painted by the Agreed Framework of something 
that was a step-by-step, reciprocal, as Bob Einhorn said, and 
gradually grew into something larger is a perfectly reasonable 
model for an agreement now if one is in the cards, phased, 
reciprocal, step-by-step, getting wider and wider.
    As far as your question on timing is concerned, the only 
timing situation that disturbs me right now besides the 
plutonium are the provocations by North Korea. Those 
provocations are clearly going to make it harder for us to 
enter into talks with the North Koreans and they are creating a 
pace of events. I think it is clear why they are doing it. I do 
not think our timing has anything to do with Iraq, but I 
suspect that North Korea's timing has everything to do with 
Iraq.
    And so this is a situation that is going to get worse 
before it gets better. It has been doing that for several 
months, and that by itself is a reason to try to pull our 
strategy together as soon as we can and get started.
    Senator Dodd. And how about motivations? What is--why, 
beyond some of the--you know, the argument of the public 
statements being made. What is going on here, in your view?
    And I realize none of you are part of the administration. 
You are not privy necessarily to that, but I want your 
speculation as to why there seems to be such a delay and with 
some clarity on a strategy here dealing with North Korea? What 
is going on here? Bob.
    Mr. Einhorn. I think one of the reasons for it is that 
there is a split within the administration. That is not a deep 
secret. And I think some in the administration simply would not 
like to engage for a number of reasons. They believe it would 
reward bad behavior. They believe it would confer a legitimacy 
on this regime in Pyongyang that it does not deserve. They 
believe that any new deal would not be complied with by North 
Korea, so it would not solve the problem in the first place. So 
I think there is an element that is simply opposed to 
engagement.
    There is another element I believe that would welcome the 
opportunity to engage, maybe in a tough-minded way, but it 
would like to engage and find out whether an effective deal can 
be made. But I think that is the principal reason why there is 
uncertainty about where the administration stands.
    Senator Dodd. Ash, did you want to comment on that at all?
    Dr. Carter. Only to say that I think there is plenty of 
room for doubt about what North Korea is up to. It is a 
mysterious place. The spirit in which I would enter into talks 
with them is the spirit in which I think we all use the word 
``experiment.''
    Senator Dodd. Yes.
    Dr. Carter. This is worth a try. You cannot be sure where 
it will lead. I do not know how the North Koreans will respond. 
I do not know whether they are prepared to agree with us or 
they can make an agreement with us of the kind we require; for 
example, verification.
    Senator Dodd. Right.
    Dr. Carter. They do not know what they are in for in the 
way of verification in a certain sense. Having the record they 
do, we are not going to settle for anything less than a very 
rigorous verification scheme. And that will be something very 
difficult for an insular, paranoid kind of political system to 
deal with.
    So I think we have to look at this as an experiment. And 
from that point of view, I think everybody who has different 
views and different takes on North Korea is entitled to their 
different views and different takes. Right now, let us go 
forward and learn by doing. I do not know what factions there 
are or what different points of view there are. I just know 
that this is a hard enough question that there is plenty of 
room for different points----
    Senator Dodd. Right.
    Dr. Carter [continuing]. Of view, and I think we ought to 
get together in the spirit of learning by doing and conducting 
this experiment.
    Senator Dodd. Last--and I do not want to put words in all 
your mouths--but I heard all three of you and you said this 
different ways. It seemed to me your unanimous conclusion that 
every day delayed on engaging in this conversation, call it 
whatever words you want to, is extremely dangerous.
    Dr. Carter. The North Koreans are trying to use time to 
narrow our options and they are succeeding at that at the 
moment, and we need to reverse that narrowing of options.
    Senator Dodd. But the conclusion that every day delayed 
heightens the degree of dangerousness with regard to North 
Korea and that is--all three of you have drawn that conclusion; 
is that true?
    Dr. Carter. I would certainly subscribe to that.
    Senator Dodd. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Dodd.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    A Washington Post article, March 5, says, ``The United 
States has begun to accept the idea of a nuclear-armed North 
Korea. Increasingly, the Bush Administration is turning its 
attention to preventing the communist government in Pyongyang 
from selling nuclear material to the highest bidder.'' The 
article implies that the United States is acquiescing that 
North Korea would remain a nuclear power and, therefore, is 
trying to contain its proliferation. Is that acceptable, in 
your opinion?
    Dr. Carter. It is not acceptable in my opinion. I tried to 
explain in my statement why a nuclear North Korea is a disaster 
for our security in a number of ways.
    Senator Nelson. And you did it very well, by the way.
    Dr. Carter. So I do not think that is something that we 
ought to be prepared to acquiesce in or that we need to 
acquiesce in.
    Dr. Kanter. Excuse me, Senator. I agree that that is not an 
outcome that we should tolerate. I have just mentioned that, I 
think while you were out of the room, Senator Brownback said he 
had checked with the NSC and they had rather firmly denied that 
story.
    Senator Nelson. Well, that is good to hear. I increasingly 
find myself frustrated with the style and the tone of the 
administration as we confront this problem, as we confront 
other problems, Iraq, the way diplomatically we have handled 
Turkey, where increasingly we appear to be the big bad boy 
bully on the schoolyard and people are or other countries are 
reacting to that.
    Do you have any idea what went on in the President's mind 
as to why a year ago in that State of the Union Speech he would 
lump North Korea in, calling them part of the ``axis of evil?''
    Dr. Kanter. No more than has been reported in the press, 
Senator.
    Senator Nelson. And would you care to characterize the 
aftermath of that, how North Korea has responded to being so 
called?
    Dr. Kanter. They did not like it.
    But that is not the test of whether it was a correct or 
appropriate thing to do. I would also notice that in this 
year's State of the Union President Bush addressed Iraq, Iran, 
and North Korea separately rather than lumping them together.
    Dr. Carter. May I add just one other thing?
    Senator Nelson. Of course.
    Dr. Carter. Quite apart from anything we have said, the 
North Koreans have believed for a long time that we are out to 
get them in some way, and I do not think--that is an article of 
faith with North Korea, a concern they have had for many, many 
years, and certainly predates anything that has been said in 
the last 2 years.
    The only reason I chime in at this point is: This is the 
crux of the matter as far as the North Koreans are concerned. 
They would like to continue to run this rather odd and 
objectionable, as Senator Brownback correctly indicated, 
regime.
    We would, of course, like for the North Koreans to have a 
better government, but we are not prepared to run the risks 
that it would take actually to deliver that to them. And in the 
meantime, while this regime continues to exist, we need to 
protect our security from it and that means making sure it does 
not take steps that will endanger our security long after it is 
gone. And that is one of the key points that I think all of us 
talked about in negotiating this strategy with North Korea.
    One has to say: ``Your security as you see it, which is 
your survival and your prospects for bettering your lot, the 
lot of your people, those prospects are much brighter if you do 
not go nuclear. You think that nuclear weapons are somehow your 
salvation, but just the opposite is true.'' That is the essence 
of the case that needs to be made to them.
    Mr. Einhorn. On this question of the Bush administration 
rhetoric and the impact it had, clearly the Bush administration 
rhetoric did not create the North Korean nuclear program. It 
clearly did not motivate the North Koreans to begin the 
clandestine uranium enrichment program in the late '90s.
    But I think under the Agreed Framework, one of the reasons 
that it was concluded was because the question of how much 
plutonium they had hidden away before 1994 was deferred; no 
resolution about that. There was ambiguity about how much they 
had. I think they saw value in that uncertainty. They believed 
it provided some deterrent value. And whether the uranium 
enrichment program was designed as another kind of hedge, we do 
not know. Perhaps it was designed as more than that.
    But it is possible that some of the statements by the 
administration over the last few years have convinced the North 
Koreans that ambiguity as a deterrent is not enough. They have 
to go beyond ambiguity and, substantially more than that, to 
demonstrate that they have a credible, unambiguous nuclear 
deterrent capability. I think it perhaps had that impact. Thank 
you.
    Senator Nelson. At the end of the day, I agree with you all 
that we cannot allow a nuclear-armed and proliferating North 
Korea. And at the end of the day, if we have to, there is the 
military option. That is not a palatable option, but it is an 
option. Were we to exercise that option, in your opinion, can 
we fight two wars at the same time?
    Dr. Carter. Secretary Rumsfeld has indicated we can. That 
was the strategy, the bedrock of the military strategy of the 
United States from 1989 when the Wall came down until right 
now, for the very good reason--and I remember because I used to 
testify on the Defense budget and people would say, ``You have 
got to be kidding. You have got to buy enough stuff for two 
wars at the same time. What are the odds that two wars are 
going to take place at the same time?'' And the answer always 
was, ``Well, if one opponent knew that we would be all tied up 
with the first war that got started, that would create the 
opportunity for the second war.'' And that is why we had a war 
machine that could simultaneously do the two major regional 
contingencies.
    And what we are seeing now in the behavior of North Korea, 
which is trying to take advantage of the fact that we are busy 
in the Middle East, is evidence that we were right, that two 
different things are likely to take place simultaneously. But 
Secretary Rumsfeld says, and I certainly believe it is true, 
that we could carry out the joint plan with South Korea for the 
defense of South Korea against North Korea today even as we are 
doing things in Iraq. I certainly hope the North Koreans 
understand that.
    Senator Nelson. Thank you, Mr. Chairman.
    The Chairman. Thank you. Thank you very much, Senator 
Nelson.
    I just have one more question sort of following along the 
reasoning of Senator Nelson. Recently when the aircraft, the 
United States aircraft, was accompanied by North Korean 
aircraft, this was a different kind of activity than 
progressing along the plutonium production line or reopening 
that situation, and I am just querying you as experts as to 
what the mind-set is there. In other words, the North Koreans 
probably were not enticing us into military action, although 
our response was to send two dozen aircraft out with the 
explicit thought they were now within range, and we spelled out 
why these aircraft are better than anything that was out there 
to begin with in terms of their armament, their accuracy.
    So the North Koreans, at least if you follow the sequence 
of provocative events, have been suggesting military activity. 
Or was the purpose of that just simply, in the sequence of the 
nuclear situation, sort of a front for commerce, if they want 
to get in the way as they try to sell material to save a 
bankrupt economy?
    In other words, it seems to me there are two different sets 
of activities here. And if the second set, the military one, is 
such, what kind of activity might we anticipate as the next 
stage? This has been a pretty rapid set of activities, just one 
after another. It may be to get our attention. This is what the 
press suggests sometimes, that we just cannot seem to get with 
it because then we will have to do more.
    But I think we all understand what is happening, but this 
seemed to be ratcheted into a different area. Did you have that 
impression? And, if so, what does this mean in terms of the 
next step, what next week?
    Dr. Kanter. In all such cases one relies primarily on 
speculation because we are talking about North Korea. I would 
speculate that the North Korean action first helped to increase 
the number of things they could do. That is, it is in addition 
to taking nuclear steps because, frankly, they are running out 
of nuclear steps to take. So this helps to increase the volume.
    The Chairman. In other words, they are almost to the point 
that you just flow right into the plutonium separation and the 
building of weapons.
    Dr. Kanter. They may be looking for additional things to do 
so they do not have to take the few remaining nuclear steps.
    Second, precisely because it was so provocative, they may 
see it not only as a way to get our attention, as the press 
likes to put it, but also to increase the pressure on us from 
our allies and other actors to enter into the direct talks that 
North Korea has been demanding. So they may have seen it as a 
pressure tactic. Beyond that, my imagination fails me.
    The Chairman. Yes, sir.
    Dr. Carter. If I may, it certainly illustrates two things. 
The first is that the North Koreans are the experts at not 
being on the back burner. The one thing they are good at is 
that. So they cannot be counted on to slow the momentum down, 
to limit, modulate, moderate, their behavior. We have to 
provide that moderation, modulation, slowing of momentum. They 
will not do it. There is the other thing that it reminds me of, 
which is just how dangerous the Korean Peninsula is and how 
quickly things could get out of control. We talked earlier 
about the possibility of the military option and possible 
retaliation by North Korea. Well, in addition to a deliberate 
action, in a regime like that and with a situation like that, 
there are all kinds of possibility for unintended consequences.
    So as the momentum picks up and people begin taking steps 
against one another, this is a regime that looks through the 
world with a very thick lens, and the possibility of accident 
and miscalculation is very large. And that leads to a third 
thing, which is since they are where they are, we have to be 
very clear about where we are. You cannot count on them to read 
the tea leaves, look behind the scenes, connect the dots of our 
actions, which is another reason why an explicit strategy 
conveyed to them directly is so important, because their 
sensors are just not as acute as they ought to be.
    The Chairman. Well, your responses are appreciated, but 
disquieting because if they have almost gone through the steps 
in the nuclear sequence and are running out of room there and 
have started military provocation and want to continue the pace 
that has been suggested thus far, we cannot anticipate a lot of 
time. There could very well be activities that are even more 
provocative, and so I do not anticipate what they are either. I 
did not anticipate the military activity this week. But we 
appreciate once again your expertise.
    Senator Biden. Mr. Chairman.
    The Chairman. Yes.
    Senator Biden. On that point, if we could just expand while 
we are on the point--and the time is not up on the Senator 
here, so if I may.
    The Chairman. Yes.
    Senator Biden. My staff points out that they in effect did 
advertise. They hinted at a cruise missile test. They have 
criticized our surveillance flights before they acted. Now they 
are publicly criticizing our upcoming military exercises.
    So I would not be surprised if the next step is, since they 
advertised it, a conventional military provocation such as 
moving their mechanized forces up, seeing them move; because 
the interesting thing to me, and I may be misreading it, and it 
is--my staffer is an expert on Korea and not me. But what they 
did, do you agree that they did in each of these provocative 
non-nuclear steps, advertise ahead of time in a sense that they 
raised the issued publicly? I mean, is there any connection 
there, Ash, do you think?
    Dr. Carter. I have heard the same thing. I do not have any 
specific information on that. As far as the exercises are 
concerned--and so I think we can expect more provocations of 
this kind. As far as the exercises are concerned, they always 
object to our exercises.
    Senator Biden. No, I understand that, and I am not saying 
that we do not do the exercises. I am not suggesting that we do 
not do the overflights. I was just trying to get a sense into 
what the Senator, what the chairman was asking about.
    Dr. Carter. Anticipate the next step.
    Senator Biden. Anticipate the next step so we do not 
overreact. I mean, you know, so that we figure it out. Anyway, 
thanks for letting me----
    The Chairman. Yes.
    Dr. Kanter. Senator, the problem is, the North Koreans 
object and complain about so many things----
    Senator Biden. That you cannot tell, yes.
    Dr. Kanter [continuing]. All the time, that you cannot know 
which of the ones they are complaining about is a signal.
    Senator Biden. That is a valid point, and thank you.
    The Chairman. Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman. I apologize for 
coming in late. I was pleased to be here for all the testimony, 
which was excellent, and this is such an important hearing. I 
had to be at Judiciary, but I thank you for allowing me to go 
forward and I will try not to use the whole time.
    I thank the chairman and Senator Biden for holding this 
important hearing. And by focusing on what can be done and what 
might be possible, I think this committee is playing a very 
important role in resisting, what I could call, the forces of 
resignation and complacency with regard to this crisis. And I 
believe that those forces are truly dangerous ones.
    My staff tells me that Senator Nelson referred to these 
recent articles. Yesterday, both the Washington Post and the 
Los Angeles Times reported that the administration has accepted 
the idea of a nuclear-armed North Korea. And like many of my 
colleagues, I read those reports with a great deal of alarm. 
And it is especially because of the good work of the chairman 
here that we have a number of hearings where we can follow 
these issues through.
    And just last month, in this committee, I asked Deputy 
Secretary of State Armitage to assure me and to assure the 
committee, that the administration was not resigned to the 
reality of a nuclear-armed, nuclear-weapons-producing North 
Korea. And he gave me his solemn assurance that there was no 
such sentiment of resignation in the administration and no such 
acceptance. Yet these reports continue to surface.
    Given North Korea's history of proliferation, a history 
that the administration acknowledges is far more serious than 
Iraq's proliferation history, this is a cause for grave 
concern.
    Wishing that the situation in North Korea was not a grave 
security threat does not make it true. Wishing that the United 
States could focus solely on Iraq does not mean that we can. 
Operating on wishful thinking is irresponsible. And I think on 
this one, the American people deserve far better and I think 
our constituents are just very confused about how one approach 
can be taken vis-a-vis Iraq and such a different attitude vis-
a-vis North Korea.
    Let me just ask a couple of questions. At this point, based 
on the information available to you, do you believe that the 
United States has succeeded in communicating to North Korea 
that nuclear weapons production will not be tolerated? Or might 
there be some ambiguity on that point in the North Korean 
perceptions of the situation? Dr. Carter.
    Dr. Carter. Well, if they read the newspapers as you did, 
they might be confused. It has been clarified, our 
understanding is, by The White House today that that is not the 
case, that the United States emphatically does not acquiesce in 
North Korea's going nuclear.
    But the fact that there is all of this speculation about 
where we might come out in terms of our overall strategy is 
another good reason, knowing how difficult it is for the North 
Koreans to read the tea leaves, for us, as quickly as we can, 
to come to a common strategy and to articulate that strategy to 
them in the most direct possible way, which is being in the 
same room with them.
    So whatever you think about what we ought to say to North 
Korea, whatever you think about the prospects of an agreement 
with them, whether you are an optimist or a pessimist about 
that, that is an experiment we need to run now, because our 
options are narrowing and there is plenty of room for them to 
be confused. And if they are confused about us and our 
strategy--the fact that they are going nuclear, threatens the 
deepest security interests of the United States. If they are 
truly confused about that, that is real trouble because I do 
not think we can be or are confused about that as a country.
    Senator Feingold. Mr. Einhorn.
    Mr. Einhorn. Senator, my guess is that the North Koreans 
are seeing ambiguous signals from this administration; and I 
think the administration needs to be more disciplined in 
adopting a consistent line. It is not just a question of these 
news stories in the last few days and the welcomed 
clarification that they are not accepting the North Korean 
nuclear capability or resigning themselves to it. That is a 
welcome clarification, but on a number of issues, Deputy 
Secretary Armitage's testimony before this committee, gave a 
lot of people the impression that we were prepared to sit down 
bilaterally. But then we heard, a few days later, a different 
position, that it was really multilaterally and multilaterally 
only.
    A month or two ago, the administration was speaking as if 
the military option was simply off the table; we were going to 
be focused exclusively on peaceful, diplomatic means. But then 
I think the administration felt that it was sending the wrong 
signal there; we had to make a correction and indicate that the 
military option was on the table. And a few days ago, the 
President talked about the military option and, perhaps, 
created the impression that--it may not be accurate, but the 
impression that it was not a last resort option.
    I think the North Koreans may be seeing and hearing all of 
these things and drawing the wrong conclusion. I think we do 
have to maintain a much more disciplined, consistent line.
    Senator Feingold. Dr. Kanter.
    Dr. Kanter. I have nothing to add, Senator.
    Senator Feingold. Let me ask one other question. Are there 
any sound models for the kind of intensive and comprehensive 
verification mechanisms that would have to be part of any 
viable agreement with North Korea, or would we have to sort of 
enter uncharted territory?
    Dr. Carter. I do not think it is uncharted territory. We 
had verification concerns with the Soviet Union. That was 
similarly a State that was good at keeping secrets. And we had 
a series of arms control negotiations with the Soviet Union and 
now with Russia, which are verifiable and verified. And even 
with respect to North Korea, those provisions of the agreement 
which dealt with plutonium at Yongbyon were thoroughly 
verified. We had inspectors there. We had Americans there for 
sometime at Yongbyon, so we knew exactly what they were doing 
at Yongbyon.
    Now, it is going to be something new to them to have 
inspections that move outside of Yongbyon, that cover other 
things, like ballistic missiles, not just the nuclear program. 
So they need to understand that an undertaking with us to 
eliminate their nuclear weapons and ballistic missile programs 
has to be verifiable, and they are going to have to understand 
that we, particularly given their record of cheating, are going 
to insist upon rigorous verification. But there is no 
fundamental reason why that cannot be done. They are just going 
to have to agree to it.
    Senator Feingold. I thank you. Yes, doctor.
    Dr. Kanter. We do have a very rich experience with arms 
control verification, and what we learned from that experience 
is that it can be immensely complicated. The START II treaty 
spends considerably more time on verification provisions than 
it does on reductions. It is immensely complicated, immensely 
difficult. It is always imperfect. The North Koreans have no 
idea what they are in for. Not only of the nature of the North 
Korean regime, but also because of their specific practices, 
including very, very extensive tunneling, the verification 
challenges in the case of North Korea will be very substantial.
    Senator Feingold. Mr. Einhorn.
    Mr. Einhorn. I just want to reinforce what Arnie Kanter 
just said. Even if the North Koreans were prepared to accept 
verification measures much more intrusive than anyone has ever 
accepted, even along the lines of what Iraq is now permitting 
by UNMOVIC and the IAEA, the fact of the matter is: We are not 
going to have high confidence that they are not engaged in some 
clandestine uranium enrichment effort. We are simply not going 
to get that, and we need to recognize that up-front.
    And what we need to do is compare the uncertainties and the 
risks of that situation of an imperfect verification, an 
imperfect confidence, against the risks of adopting a policy of 
pressure, isolation, containment, because of the risks of that 
strategy as well. And you have to weigh these two 
possibilities. But you are not going to get a perfectly 
verifiable agreement with the North Koreans.
    Senator Feingold. I thank the witnesses and thank you, Mr. 
Chairman.
    [The prepared statement of Senator Feingold follows:]

           Prepared Statement of Senator Russell D. Feingold

    I thank the Chairman and Senator Biden for holding this important 
hearing and engaging in a discussion of the North Korea crisis through 
such a constructive approach. By focusing on what can be done and what 
might be possible, I think this committee is playing a very important 
role in resisting the forces of resignation and complacency with regard 
to this crisis. And I believe that those forces are truly dangerous 
ones.
    Yesterday both the Washington Post and the Los Angeles Times 
reported that the administration has accepted the idea of a nuclear-
armed North Korea. Like my colleagues, I read these reports with a 
great deal of alarm. Just last month, in this committee, I asked Deputy 
Secretary of State Armitage to assure me, and to assure the committee, 
that reports that the administration was not resigned to the reality of 
a nuclear-armed, nuclear-weapons-producing North Korea. And he did 
assure me that there was no such sentiment of resignation in the 
administration and no such acceptance. Yet these reports continue to 
surface. Given North Koreats history of proliferation--a history that 
the administration acknowledges is far more serious than Iraq's 
proliferation history--this is cause for grave concern. Wishing that 
the situation in North Korea was not a grave security threat does not 
make it true. Wishing that the U.S. could focus solely on Iraq does not 
mean that we can. Operating on wishful thinking is irresponsible, and 
the American people deserve far better.

    The Chairman. Thank you very much, Senator Feingold.
    Senator Biden.
    Senator Biden. In running the risk of trespassing on 
everybody's time too much, I have two questions and I will 
cease and desist. And again, I cannot tell you how much I 
appreciate your testimony and how enlightening it is.
    In a discussion several weeks ago with an administration 
official who is in a significant position, and I was pressing 
the case in a private conversation that you have got to talk. 
This particular person said basically, I agree. We have to 
talk, but we have plenty of time, Joe. We have plenty of time, 
and went on to suggest two things. And I want to make it clear 
because he is already in enough trouble: I am not talking about 
Secretary Armitage, and I am really not. It was not Secretary 
Armitage.
    But it has been said, No. 1, ``I think they will blink,'' 
that is the North Koreans. And two, `even if they restart the 
reprocessing facility, we still have time.''
    Now, I assume what he meant by that is if reprocessing 
started tomorrow, if we got up from this--if as we walked out, 
the press grabbed us and said, ``They have just announced they 
have started and we have confirmed they have started the 
reprocessing facility,'' that it is going to be a month or so 
before the first baseball-size piece of plutonium, not piece, 
but a chunk of plutonium is available.
    First of all, from a scientific standpoint, to use a 
colloquial kind of term here, is that true? From the moment 
they start it, how much time is there before there is a product 
that is able to be, if they wish to, transported to some other 
part of the world against our interests?
    Dr. Carter. The situation is as you described it, namely 
within a matter of a few weeks after beginning the reprocessing 
process, they would begin to accumulate at the rate of every 
few weeks a bomb's worth up until five or six bombs. It is 
exactly as you described.
    Senator Biden. Now, so my second question is that, when I 
come back to where I began--and I realize this is not your 
responsibility, and I realize that it is not something that any 
of you are comfortable with, so I am not going to ask you to 
pursue it again, but I keep coming back to trying to figure 
out--let me back up.
    Let us assume, and I think most of us assume in varying 
degrees, that there is some disagreement within the 
administration on what policy to pursue. Otherwise, there would 
be a clear definition and they have not been stated by now. At 
least that is my assumption. And so the reason why I--just so 
you do not think I am just engaged in a sort of an unusual 
exercise here of trying to divine what the motivation is, but 
it is to try to figure out, quite frankly, to the very limited 
degree I have any influence and to a larger degree that the 
chairman may and other senior Republicans, is how to weigh-in 
internally, not publicly.
    I have no interest in seeing a public debate and 
disagreement between me as a Democrat and a spokesperson in 
part at least for foreign policy for my party, and the 
President. That is not a useful thing in my view. That is not 
something I am looking to have happen. So I just want to--as by 
way of background, I think you all understand this, but if 
anybody's listening, what my motivation here is. And I for one 
do not think at this point, it is particularly relevant whether 
or not statements by the administration or failure to pursue 
the Agreed Framework has got us to where we are. We are where 
we are.
    And so I have to make sure I understand one thing from two 
very seasoned, serious negotiators, among other things, in two 
different administrations and one very seasoned and significant 
strategist as well as negotiator, whether the premise upon 
which I am basing my attempt to seek an answer to what is going 
on downtown is correct. And that is: Is it, as I have perceived 
it to be, correct that no matter how you dice it or slice it, 
that there is no negotiated end to this rush to nuclear weapons 
and long-range missiles that does not contain an acknowledgment 
on our part that regime change is not our policy? In other 
words, can you think of any circumstances--you are seasoned 
negotiators. You sit down across the table and as they say, to 
get to yes you have to figure out--you either have to figure 
out how to take advantage of a very stupid adversary and get 
everything so, like your mom, Mr. Kanter, you get both.
    Dr. Kanter. Now, you have turned me in.
    Senator Biden. I did. That was lousy of me; I apologize.
    But seriously, you either have to assume that. Or you have 
to figure out: What do you believe to be the bottom line for 
them in terms of a minimum requirement in order for them to get 
into a deal? And so, it is in that context I ask the question.
    Do you believe that the minimum, the drop-dead position 
that needs to be met, assuming they met all of our needs, the 
drop-dead position from the North Korean side is you guys 
foreswear regime change. You guys, in some form, like an 
executive agreement, a multilateral agreement, a treaty or 
whatever the heck they may want to talk about it, how they want 
to talk about it, but the bottom line is they would have to be 
convinced that we have, at least for the time being, foresworn 
active efforts to bring down their regime. Am I right about 
that?
    Dr. Kanter. Yes.
    Mr. Einhorn. Yes, it is a--it is certainly a necessary 
condition----
    Senator Biden. It is not sufficient necessarily.
    Mr. Einhorn. It is not sufficient. We do not know what else 
is there.
    Senator Biden. No, I understand, but without that----
    Mr. Einhorn. I think it is a necessary condition.
    Senator Biden. Ash?
    Dr. Carter. It is a necessary condition.
    Senator Biden. OK. Because I----
    Dr. Carter. May I just----
    Senator Biden. Yes.
    Dr. Carter. There is just one other thing I should add 
though which is I do not think that that means that stasis is 
our policy.
    Senator Biden. No, I understand. I was trying to----
    Dr. Carter. We are trying to offer them a better future for 
them, and in that sense we are in favor of change.
    Senator Biden. Well, I would argue, quite frankly, it would 
be totally consistent with the remainder of our policy. This 
administration, the last administration engaged China. Nobody 
in this administration, no one in the last administration, no 
one in the previous administration is happy with the fact that 
there is still a minimum oligarchy and a dictatorship there 
where human rights are being violated, but we have concluded, 
we have made--we have reached at what we are always searching 
for here, a bipartisan consensus that goes well beyond the 
Congress, that the key to dealing with China now and in the 
future is engagement, and the underlying principal that 
Democrats, Republicans, liberals, conservatives, everyone 
shares who shares that view is that the very engagement will 
be, the very exposure to the world will be the very thing that 
will undermine this human-rights-abusing regime that we do not 
like.
    So I would argue that it is totally consistent. It does not 
mean if we foreswear the use of military force and a regime 
change, we are not going to, by totally peaceful means of 
engaging, have as our objective the end of a repressive regime 
in the region. But I just want to make sure, because I have 
found--I have never in the seven Presidents I have served with, 
I have never found as large a segment of any other 
administration being driven by, to put the best spin on it, a 
pure ideological perspective, as pure an ideological 
perspective on how the world should be moving now, as I have 
with this administration. And it is not a majority. I am not 
talking about--I am not talking about the President of the 
United States, and I sincerely am not. But the President is 
getting advice, and I am trying to figure out--well, I have 
already stated what I am trying to figure out, and I am not 
sure even if I figure it out, it is particularly relevant to 
the outcome. But it would sure as heck make me feel a little 
better knowing what, well, what it was that had we had to do 
and had to be helpful to do, or what we should refrain from 
doing up here to get the administration to the clear 
enunciation of a policy that--and I do not think we have a lot 
of time, and I know you do not either.
    Thank you all very much.
    I thank you, Mr. Chairman, for your indulgence.
    The Chairman. Thank you, Senator Biden.
    Let me just mention that the committee will have the 
privilege on March 12, which is just 6 days away, of hearing 
from Assistant Secretary Kelly of the State Department. And the 
topic then will be regional implications of the changing 
nuclear equation on the Korean Peninsula. So it will be a 
continuation of our discussions about Korea, and I want to 
mention that for public notice because I know there is a very 
large interest in our country and in the Senate, obviously.
    We thank each one of you for your remarkable contributions 
today. And the hearing is recessed.
    Dr. Carter. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    [Whereupon, at 12:15 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]

             Additional Statement Submitted for the Record

               [For Immediate Release--February 26, 2003]

  Statement of Senator E. Benjamin Nelson, U.S. Senator from Nebraska

   NELSON OFFERS ``SIMULTANEOUS MODEL'' FOR ENGAGEMENT IN NORTH KOREA

    Washington, DC.--Nebraska's Senator Ben Nelson will call on the 
Bush Administration to adopt a ``simultaneous model'' of engagement 
with North Korea to resolve the standoff over negotiations on the rogue 
nation's nuclear weapons program.
    North Korea is seeking bilateral meetings with the United States to 
discuss their nuclear program and is also seeking a non-aggression pact 
from the United States. Secretary of State Colin Powell has been 
working to build a coalition of nations to initiate multi-lateral 
negotiations with North Korea, but has yet to convince regional nations 
to participate.
    ``North Korea presents an immediate and growing threat to the 
United States and our allies,'' said Senator Nelson. ``After visiting 
with Secretary Powell during our trip to the Korean Peninsula and 
meeting with South Korean President Rho, I believe the best course of 
action to follow is to use a simultaneous model of engagement where 
North Korea would freeze its nuclear program and allow inspectors to 
confirm their actions while the United States agrees to hold off on 
military action and economic sanctions before negotiations begin.''
    Nelson says that the only course of action in North Korea is 
engagement because of the threat the new nuclear power poses to South 
Korea and other allies and the U.S. military interests in the region. 
North Korea's refusal to allow multi-lateral talks has delayed 
negotiations.
    ``I support Secretary Powell's efforts to build a coalition for 
talks, but North Korea is balking at negotiations that include other 
regional powers,'' said Nelson. ``With the clock ticking, I think we 
need to pursue an approach that will get talks initiated immediately.''
    Nelson hopes that engagement now, before North Korea further 
expands its nuclear program, can prevent the proliferation of nuclear 
material to terrorist organizations. He also thinks that additional 
economic sanctions before negotiations may be ineffective.
    ``Ultimately, the United States needs to prevent North Korea from 
becoming a clearinghouse where terrorists can one-stop-shop for nuclear 
weapons,'' Nelson said. ``Because of the significant threat posed by 
North Korea, we must engage in diplomatic discussions with them to 
freeze the nuclear program and bring about economic reform to prevent 
them from selling weapons and material to survive economically.''
    Nelson said the options of sanctions should not be taken off the 
table as part of the negotiations once they begin but that offering to 
withhold sanctions before the talks could jumpstart the process.
    Nelson will forward his recommendations to Secretary Powell in a 
letter he will send this week.
Nelson Simultaneous Model for Engagement with North Korea
    North Korea presents an immediate and growing threat to the United 
States and our allies.

  <bullet> North Korea will meet with us only in bilateral talks, not 
        through a multilateral approach the Administration is pursuing. 
        Our allies in the region are encouraging us to meet with North 
        Korea one-on-one.

  <bullet> The United States should immediately open a dialogue with 
        North Korea and pursue a simultaneous model of engagement with 
        the following mutual preconditions:

          --North Korea freezes their nuclear program and allows 
        nuclear inspectors to confirm their compliance.

          --The United States agrees not to attack North Korea or call 
        for economic sanctions.

  <bullet> If we wait, North Korea's nuclear arsenal will grow and 
        North Korea will become a one-stop-shop for terrorists and pose 
        an even greater threat to the Korean Peninsula and the world.


</pre></body></html>
